<html>
<title> - DISCUSSION DRAFT TO PROVIDE FUNDING FOR THE CONSTRUCTION AND MAINTENANCE OF A NATIONWIDE, INTEROPERABLE PUBLIC SAFETY BROADBAND NETWORK AND FOR OTHER PURPOSES AND ON H.R. 4829, THE NEXT GENERATION 911 PRESERVATION ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
     DISCUSSION DRAFT TO PROVIDE FUNDING FOR THE CONSTRUCTION AND 
  MAINTENANCE OF A NATIONWIDE, INTEROPERABLE PUBLIC SAFETY BROADBAND 
 NETWORK AND FOR OTHER PURPOSES AND ON H.R. 4829, THE NEXT GENERATION 
                      911 PRESERVATION ACT OF 2010
=======================================================================



                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                       HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

                           Serial No. 111-138


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
77-915                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)

                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    41
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    42
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................    43
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    44
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    45
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    46
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    47
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    48
Hon. Anthony D. Weiner, a Representative in Congress from the 
  State of New York, opening statement...........................    48
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    49
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................    50
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................    50

                               Witnesses

James Arden Barnett, Jr., Rear Admiral (Ret.) USNR, Chief, Public 
  Safety and Homeland Security Bureau, Federal Communications 
  Commission.....................................................    52
    Prepared statement...........................................    54
    Answers to submitted questions...............................   202
Charles F. Dowd, Deputy Chief, New York City Police Department...    73
    Prepared statement...........................................    76
Jonathan Moore, Director of Fire and EMS Operations and GIS 
  Services, International Association of Fire Fighters...........    80
    Prepared statement...........................................    82
Dale Hatfield, Adjunct Professor, Interdisciplinary 
  Telecommunications Program, University of Colorado at Boulder..    88
    Prepared statement...........................................    90
Steve Zipperstein, General Counsel, Verizon Wireless.............    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   206
Joseph Hanley, Vice President, Technology Planning & Services, 
  Telephone & Data Systems, Inc..................................   113
    Prepared statement...........................................   115
    Answers to submitted questions...............................   211
Coleman D. Bazelon, Principal, The Brattle Group.................   126
    Prepared statement...........................................   128
    Answers to submitted questions...............................   215
Brian Fontes, Chief Executive Officer, National Emergency Number 
  Association....................................................   132
    Prepared statement...........................................   134
    Answers to submitted questions...............................   220

                           Submitted Material

Discussion draft summary.........................................     4
Discussion draft.................................................     7
H.R. 4829........................................................    23
Letter of June 16, 2010, from M2Z Networks to the Committee......   152
Letter of June 29, 2007, from the Committee to the Federal 
  Communications Commission......................................   157
Two letters from the National Governors Association..............   161
FCC white paper, dated June 2010.................................   164


     DISCUSSION DRAFT TO PROVIDE FUNDING FOR THE CONSTRUCTION AND 
  MAINTENANCE OF A NATIONWIDE, INTEROPERABLE PUBLIC SAFETY BROADBAND 
 NETWORK AND FOR OTHER PURPOSES AND ON H.R. 4829, THE NEXT GENERATION 
                      911 PRESERVATION ACT OF 2010

                              ----------                              


                        THURSDAY, JUNE 17, 2010

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Rick 
Boucher [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boucher, Gordon, Rush, 
Eshoo, Inslee, Weiner, Castor, McNerney, Waxman (ex officio), 
Stearns, Shimkus, Terry, Blackburn, and Barton (ex officio).
    Also present: Representative Harman.
    Staff present: Amy Levine, Counsel; Roger Sherman, Chief 
Counsel; Tim Powderly, Senior Counsel; Pat Delgado, Chief of 
Staff; Shawn Chang, Counsel; Greg Guice, Counsel; Sarah Fisher, 
Special Assistant; Laurance Frierson, Intern; Alex Reicher, 
Intern; Bruce Wolpe, Senior Advisor; Will Carty, Professional 
Staff Member, CTCP; and Neil Fried, Counsel, 
Telecommunications.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The subcommittee will come to order. Today the 
subcommittee will consider the steps that Congress can take to 
facilitate the creation of a nationwide, interoperable 
broadband network for the public safety community. As the 
terrorist attacks on 9/11 and the natural disasters such as 
Hurricane Katrina have starkly revealed, there are serious 
obstacles that prevent fire, police, and rescue personnel from 
one locality from communicating with first responders from 
other localities when they converge on the scene of a disaster. 
In some instances, fire police and rescue personnel in a single 
locality may lack a means of interoperable communications, one 
with another. There is a widely understood need to create a 
fully interoperable first responder network but as of today 
that network remains a goal. It is not a reality.
    On a bipartisan basis, the members of this committee are 
determined to address this challenge and take the steps that 
are necessary from a legislative perspective in order to make 
that first responder network a reality. In bipartisan 
cooperation our staffs have assembled a discussion draft of 
legislation that spells out those necessary steps. Our focus 
this morning is on that discussion draft. The largest single 
challenge to creating the first responder network is 
identifying and obtaining the funding that is needed for the 
buying, the installation, the operating, and the maintaining of 
the equipment that will provide broadband communications.
    The National Broadband Plan assembled by the FCC estimates 
that cost to be between $12 billion and $16 billion over a 10-
year period. The discussion draft directs that the D Block be 
auctioned and that the proceeds from that auction and the 
auction of several other spectrum blocks be applied to the 
build out and the upkeep costs of the first responder network. 
The draft authorizes general fund appropriations to cover any 
shortfall between the costs of the network and the auction 
proceeds for the D Block and those other areas of spectrum that 
would be auctioned. A strong federal government role in funding 
the network build out as detailed in the discussion draft will 
be essential if a true nationwide network is to be realized.
    In rural areas, in particular, the localities will have 
great difficulty affording the build out costs in the absence 
of federal government financial participation in funding those 
costs. The bipartisan legislative draft acknowledges and 
accommodates that reality. The discussion draft also recognizes 
the 24 megahertz of 700 band spectrum that is already held by 
the public safety community. This current spectrum holding was 
deemed adequate by the FCC's analysis for the nationwide 
broadband first responder network that we now need to realize. 
Some, however, have proposed a different path forward than the 
bipartisan staff discussion draft. They would give the D Block 
to public safety to be combined with public safety's existing 
spectrum holdings.
    The most significant shortcoming from that auction is that 
it would not provide the funding that is necessary for building 
out public safety's network. While some contend that public 
safety could lease parts of the D Block to commercial entities 
and apply the revenue from the leases to the build out, 
maintenance, and operational costs, I question whether 
sufficient revenue from leasing could be realized, particularly 
in rural areas to assure the funding of the network costs, and 
it is the rural build out cost that may prove most challenging 
for local governments to fund on their own. The option of 
giving the D Block to public safety would also require that 
Congress find offsets for the D Block's value. While we don't 
know with certainty what value the Congressional Budget Office 
would assign to the D Block current estimates place it between 
$2 billion and $3 billion. That is money Congress would have to 
identify and acquire before a single penny could be spent on 
constructing the network.
    We have a historic opportunity to make our Nation more 
secure and give first responders a crucial tool they urgently 
need, and I urge all members to keep this goal in mind as we 
consider and determine how best to proceed. I expect that we 
will receive thoughtful analysis on those questions from 
today's witnesses. We will also at today's hearing consider 
H.R. 4829, the Next Generation 911 Preservation Act of 2010, 
which was introduced by our committee colleagues, Ms. Eshoo of 
California, and Mr. Shimkus of Illinois. This measure would 
reauthorize the enhanced 911 Act of 2004 and facilitate the 
migration of today's enhanced 911 emergency communication 
systems to IP-based systems known as Next Generation 911 that 
could support multi-media communications including text, e-
mail, and video.
    I want to thank our committee colleagues for bringing this 
thoughtful measure before us. It will be considered as a part 
of today's hearing. Thanks to our witnesses for being here 
today. I look forward to your thoughtful analysis, and I also 
want to say thank you to the members of this subcommittee on 
both sides of the aisle who have participated in a bipartisan 
fashion in putting forward the discussion draft of the Public 
Safety Broadband Act of 2010. That concludes my opening 
statement, and I am pleased now to recognize the ranking 
Republican member of our subcommittee, the gentleman from 
Florida, Mr. Stearns.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 77915A.001
    
    [GRAPHIC] [TIFF OMITTED] 77915A.002
    
    [GRAPHIC] [TIFF OMITTED] 77915A.003
    
    [GRAPHIC] [TIFF OMITTED] 77915A.004
    
    [GRAPHIC] [TIFF OMITTED] 77915A.005
    
    [GRAPHIC] [TIFF OMITTED] 77915A.006
    
    [GRAPHIC] [TIFF OMITTED] 77915A.007
    
    [GRAPHIC] [TIFF OMITTED] 77915A.008
    
    [GRAPHIC] [TIFF OMITTED] 77915A.009
    
    [GRAPHIC] [TIFF OMITTED] 77915A.010
    
    [GRAPHIC] [TIFF OMITTED] 77915A.011
    
    [GRAPHIC] [TIFF OMITTED] 77915A.012
    
    [GRAPHIC] [TIFF OMITTED] 77915A.013
    
    [GRAPHIC] [TIFF OMITTED] 77915A.014
    
    [GRAPHIC] [TIFF OMITTED] 77915A.015
    
    [GRAPHIC] [TIFF OMITTED] 77915A.016
    
    [GRAPHIC] [TIFF OMITTED] 77915A.017
    
    [GRAPHIC] [TIFF OMITTED] 77915A.018
    
    [GRAPHIC] [TIFF OMITTED] 77915A.019
    
    [GRAPHIC] [TIFF OMITTED] 77915A.020
    
    [GRAPHIC] [TIFF OMITTED] 77915A.021
    
    [GRAPHIC] [TIFF OMITTED] 77915A.022
    
    [GRAPHIC] [TIFF OMITTED] 77915A.023
    
    [GRAPHIC] [TIFF OMITTED] 77915A.024
    
    [GRAPHIC] [TIFF OMITTED] 77915A.025
    
    [GRAPHIC] [TIFF OMITTED] 77915A.026
    
    [GRAPHIC] [TIFF OMITTED] 77915A.027
    
    [GRAPHIC] [TIFF OMITTED] 77915A.028
    
    [GRAPHIC] [TIFF OMITTED] 77915A.029
    
    [GRAPHIC] [TIFF OMITTED] 77915A.030
    
    [GRAPHIC] [TIFF OMITTED] 77915A.031
    
    [GRAPHIC] [TIFF OMITTED] 77915A.032
    
    [GRAPHIC] [TIFF OMITTED] 77915A.033
    
    [GRAPHIC] [TIFF OMITTED] 77915A.034
    
    [GRAPHIC] [TIFF OMITTED] 77915A.035
    
    [GRAPHIC] [TIFF OMITTED] 77915A.036
    
    [GRAPHIC] [TIFF OMITTED] 77915A.037
    
 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, and thank you, Mr. Chairman, for 
holding this hearing, and also to welcome all of our witnesses 
this morning. We appreciate your time. Mr. Chairman, before I 
give all my comments on this hearing, I would like to note that 
this morning the FCC is considering a Notice of Inquiry to 
reclassify broadband as a Title 2 service. Broadband deployment 
and adoption are top priorities and Chairman Genachowski's plan 
to treat broadband similar to a public utility, I think will 
hurt investment and possibly hurt innovation. Our current pre-
market, pro-investment policies have served us well. 
Approximately 95 percent of all Americans have access to 
broadband and approximately 200 million subscribe at home today 
and this is up from 8 million just 10 years ago. By comparison, 
it took 75 years to go from 8 million voice subscribers to 200 
million under the old Title 2 common carrier regulations.
    So, Mr. Chairman, I hope that we can soon have a hearing on 
the FCC's Notice of Inquiry. I think it is only appropriate 
considering what Chairman Genachowski is doing so that we have 
an opportunity. Both sides of the aisle can look at this issue 
and assess what he is doing. As you mentioned, in this hearing 
we are examining two very important pieces of legislation. The 
first is draft legislation to fund a nationwide interoperable 
public safety broadband network. I agree with the overall 
approach of the draft legislation, but perhaps the language 
could go further. I support the draft bill to the extent it 
uses revenue from a straight commercial auction of the D Block 
to fund the network on a 24 megahertz public safety spectrum 
already available. The FCC has concluded that the spectrum that 
has already been cleared for public safety is sufficient to 
simply build the network, but we need to be sure, however, that 
the legislation prohibits the FCC from imposing network 
neutrality or other such conditions and does not allow the FCC 
to rig the auction in favor of specific business models.
    The 2005 DTV legislation which made this spectrum available 
left the FCC too much discretion in how to structure this 
auction. As we saw with the 700 megahertz auction in 2008, 
network neutrality and public safety conditions reduced the 
revenues by $5 billion, sidelined both the 24 megahertz of 
public safety spectrum and the commercial D Block and crowded 
out smaller carriers. Absent exclusive prohibitions in the 
legislation, we can have no assurances that the FCC won't 
impose conditions on the D Block auction that will hurt it, 
again harming spectrum policy and reducing proceeds we need to 
fund the Public Safety Network. Instead of a commercial auction 
some argue that Congress should pass a law to give the D Block 
directly to the public safety community for free. This would do 
little good, however, absent funding to construct the network.
    In this time of huge deficits and mounting public debt, it 
makes the most sense to raise the money through an auction to 
fund the network. We are now close to the 9-year anniversary of 
the September 11 terrorist attacks and yet we still do not have 
a nationwide interoperable broadband public safety network. 
This is too important, and we have already wasted too much 
time. The other bill under discussion this morning is H.R. 
4829, the Next Generation 911 Preservation Act of 2010. This 
bill can also improve our nation's public safety. Mr. Shimkus 
and Ms. Eshoo introduced this bill to expedite the ongoing 
migration of 911 service to enhance 911 service that can 
automatically identify the location of the caller to upgrade 
our entire 911 system for the Next Generation Internet enabled 
networks and capabilities that incorporate advanced texting and 
video applications, and to reduce the misuse of 911 fees which 
some state and local governments divert to fill holes in their 
budget.
    You know, with a few changes the bill might help to not 
only modernize our 911 system but also to make it more 
economically and administratively efficient. Obviously there is 
a concern the bill costs and authorizes about $250 million a 
year for the next 5 years. Frankly, we are having a little 
trouble finding money for the broadband public safety network 
so this is a very notable goal and thoughtful bill. I support 
it. I just want to make sure that we can also find the money to 
do this. So, Mr. Chairman, I think it is a very good hearing. I 
welcome this opportunity. Again, I would reiterate I think it 
would be appropriate that this subcommittee have a hearing on 
the FCC's Notice of Inquiry as soon as possible. Thank you.
    Mr. Boucher. Thank you very much, Mr. Stearns. The 
gentleman from Tennessee, Mr. Gordon, is recognized for 2 
minutes.
    Mr. Gordon. Thank you, Mr. Chairman. We have a long panel 
here this morning. I will pass so we can get on to the hearing.
    Mr. Boucher. Thank you, Mr. Gordon. We will add your 
opening statement time to your time for questioning our panel 
of witnesses. The gentleman from Illinois, Mr. Shimkus, is 
recognized for 2 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. Thank you for calling 
the hearing and the discussion on both bills. The D Block has 
been a problem for us. We tried to auction it off to get it in 
the hands and that was a failure, so now we are revisiting it. 
I think we had good hearings, I don't know how long ago, 6, 10 
months ago on this issue, and I think we are moving in the 
right direction. So we look forward to continuing to work with 
you on that issue. I also want to commend my colleague, Anna 
Eshoo, on her work and us moving forward on the E 911 bill and 
the funds issues, not only getting technology in the hands of 
first line responders but also helping them afford some of 
this. This is something that I think we can move forward. I 
want to highlight Jill Pender who is leaving. I know Anna will 
probably mention her. She is leaving the stress and strain of 
the Hill to go to the peace and quiet of the FCC, so I wish her 
well. It might be more peaceful here than returning there right 
now.
    The last thing is there is a budgetary crisis across this 
country and all we want is kind of truth in advertising. If 
states are taking money to help deploy 911 funds, that is where 
the money goes to, and our bill says you don't get federal 
additional help if you don't do that. When we first started 
this process, Illinois was a good actor and our money was going 
in the right direction. Since then, we have turned to be a bad 
actor. We are $12.5 billion in debt and we have raided the 
funds. Shame on us, and that is why we have done great work. 
And thank you for sharing Jill with us too. I yield back.
    Mr. Boucher. Thank you, Mr. Shimkus. The gentleman from 
Illinois, Mr. Rush, is recognized for 2 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman. Mr. Chairman, I want to 
commend you on this hearing. It is a privilege for me to 
participate in today's legislative hearing for it raises a 
number of the most critical national security and public safety 
needs and demands that this subcommittee could possibly 
address, and that is to promote the Nation's public safety by 
ensuring multiple public safety agencies in multiple 
jurisdictions including heroic first responders, that they have 
reliable access to adequate wireless spectrum and interoperable 
equipment during times of disaster, crises, and emergencies. 
These matters are very important to me and I empathize with the 
frustration of the public safety community, being proud to have 
co-sponsored legislation such as Congresswoman Harman's 
Emergency Communications Bill, H.R. 3633, which helps states to 
supply public safety personnel with interoperable 
communications equipment and training.
    But what we have now, Mr. Chairman, is a Tower of Babel 
situation of sorts where public safety agencies operate on 
different and non-existing channels of spectrum allocations 
even though these public safety agencies, officials, and 
workers must communicate in a common language with no, and I 
emphasize no, margin for delay. These problems of 
interoperability have slowed response efforts considerably, 
costing people their lives, their homes, and their loved ones. 
Despite the legitimate issues of how we would pay for these 
interoperable networks and what are the best approaches to 
promoting spectrum efficiency and maximizing the utility of 
these frequencies for our society, we are taking a vitally 
important step today by bring this discussion up for a hearing 
and refusing to ignore these problems or to delay action any 
longer.
    Let me also commend Ms. Eshoo and Mr. Shimkus for 
introducing H.R. 4829. Based on my reading of the bill, it will 
accelerate the migration of more central 911 services and 
systems to IP-enabled Next Generation 911 and emergency 
communication services and systems. The bill will make these 
services universally available and accessible to all Americans 
including the disabled and those with hearing, vision, and 
speech impairments. Additionally, it will provide matching 
grant funding assistance to eligible entities so that we can 
migrate more quickly to these Next Generation services to 
supporting the IP-enabled backbone and emergency network for 
those services and the necessary software to coordinate and 
interconnect our numerous emergency response organizations. Mr. 
Chairman, I look forward to hearing testimony and discussion 
during today's hearing. I want to thank you, and with that I 
yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Rush. The gentleman 
from Texas, Mr. Barton, the ranking member of the Energy and 
Commerce Committee, is recognized for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I commend you on 
holding the hearing with what is going on downstairs. We have a 
subcommittee that is focusing on things that don't make the 
media attention but are very important, and I am not saying 
what is happening downstairs is not important, but we do 
commend you for holding this hearing. We want to focus on our 
public safety technology goals today. Specifically, we are 
going to discuss the FCC's plans, the current discussion draft, 
to begin the buildout of a truly nationwide, truly 
interoperable broadband network for the public safety 
community. The good news is that everyone in the room agrees on 
the goal, which is to build a robust network that will allow 
all of our first responders to communicate with each other both 
in the everyday business of responding to fires, highway 
accidents, but also during a large scale tragedy like the 9/11 
attack. This goal should be the singular focus.
    I want to commend Chairman Genachowski of the FCC and the 
staff and the staff of the National Broadband Team. Based on 
their work and their conclusions about the state of broadband 
in the country 95 percent of the country has access to 
broadband and 200 million people have actually adopted it. A 
deregulatory posture that we have used so far in this country 
has been successful. I am deeply disturbed by today's action of 
the FCC and the Commission potentially to move towards 
reclassifying broadband as a Title 2 service. In my mind, this 
is a misguided decision. It contradicts and ignores explicit 
congressional intent not to mention the Obama Administration's 
promise to start creating jobs. I hope that we can have a 
hearing, Mr. Chairman, on that issue in the very near future.
    That disagreement aside, where there is no disagreement 
about public safety the Commission got some of the things right 
in the plan. I want to congratulate Admiral Barnett on his work 
and also the issue surrounding the 700 megahertz D Block. Back 
in 2007, I laid out a framework for a D Block auction that is 
both the basis of the FCC's plan and for today's discussion 
draft, auction the D Block for commercial purposes, use the 
proceeds to build and operate the public safety network. The 
public safety community argues that they don't have enough 
spectrum and should be given the broadband. They argue that 
their current 10 megahertz won't be enough. I understand their 
concerns but I disagree with that. If we do it right, we can 
have private industry pay us to build a network and then give 
the public safety community the ability to use the right amount 
of spectrum when the inevitable emergencies occur.
    We need to focus on how to maximize the revenue from the 
auction to D Block for commercial purposes. Maximizing those 
proceeds will do the most for getting this moving the right 
way. Imposing onerous conditions on the spectrum barring 
particular market players from participating only devalues the 
value of that spectrum. In my mind, there is no doubt about 
that. Finally, Mr. Chairman, I am anxious to hear from the 
witnesses today about their opinion of H.R. 4829. We obviously 
need to upgrade our 911 service for a new technological world 
when the current White House spends billions of dollars the way 
the previous administration spent millions, $250 million a year 
could be considered pocket change. I believe, though, that the 
system should be modernized, made as efficient as possible. We 
need to be sure that the taxpayers' money we make available for 
that work is well spent and ideally is offset by spending cuts 
and services that are less vital. With that, Mr. Chairman, I 
welcome our witnesses, especially Admiral Barnett to the 
committee and look forward to their testimony.
    Mr. Boucher. Thank you very much, Mr. Barton. The gentleman 
from California, Mr. Waxman, chairman of the full committee, is 
recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for 
scheduling this critically important hearing, and I want to 
thank you and ranking members Barton and Stearns for their 
constructive contribution to the bipartisan staff discussion 
draft, and I look forward to continued bipartisan 
collaboration. Last September, this subcommittee held a hearing 
to explore recent developments regarding the creation of a 
nationwide interoperable broadband network for public safety. 
There was a consensus that constructing a nationwide public 
safety broadband network remains critical unfinished business 
from 9/11 and Hurricane Katrina. In my statement, I identified 
3 goals. First, network or networks must be built quickly. 
Secondly, there must be a clear plan to ensure that deployment 
reaches all areas of the country. And, third, the plan should 
avoid distorting or disrupting the commercial wireless 
marketplace by giving an unfair advantage to certain carriers 
over others.
    I think the bipartisan discussion draft more than meets 
these essential goals. First, it allows for the immediate start 
of network construction, gives the NTIA the authority to start 
funding projects as soon as the rules are in place even prior 
to any auctions. As the FCC notes in its broadband plan, we 
need to act quickly to gain substantial cost savings regarding 
network construction. If we are unable to take advantage of 
commercial construction schedules the cost of building this 
network increases dramatically, possibly 3 times as high. 
Secondly, by providing the requisite funding for a network 
across the nation all communities, not just major cities with 
large budgets, will be able to construct their portion of the 
network. Specifically the discussion draft contemplates the 
federal government covering 80 percent of construction costs 
and 50 percent of the ongoing costs associated with this 
network.
    The stark budget realities that the state and local 
governments face today would make it difficult for them to 
construct this network without such assistance. And, finally, 
the draft legislation does not distort competition in the 
wireless market. In fact, by setting deadlines for specific 
spectrum auctions to occur the discussion draft should help 
promote competition by ensuring the availability of additional 
spectrum. I know this discussion draft doesn't satisfy all the 
public safety community, and several associations and their 
corporate partners have launched a campaign to convince 
Congress to give public safety 10 megahertz of spectrum, the 
so-called D Block.
    It is my firm view, however that this singular focus on the 
D Block undercuts what we all want to achieve, a sustainable 
nationwide broadband network for public safety. Indeed, some 
have suggested to us that they would prefer to have the D Block 
of spectrum rather than the substantial federal support 
contemplated by the discussion draft. I don't think that is a 
tenable position. Spectrum without a viable plan to utilize it 
efficiently will create a network of haves and have nots, and I 
urge advocates of this position to reconsider this all or 
nothing approach. Indeed, the FCC's National Broadband Plan has 
amplified my concern about this spectrum first approach. In a 
detailed technical paper released earlier this week, the FCC 
concluded that 10 megahertz of dedicated spectrum allocated to 
public safety in the 700 megahertz band for broadband 
communications provides more capacity than it needs on a day-
to-day and emergency basis.
    But the FCC also concluded that giving public safety an 
additional megahertz of spectrum would not guarantee public 
safety sufficient capacity in a worse case emergency like 9/11, 
and that is why the FCC has instead proposed that public safety 
be guaranteed priority access to hardened commercial networks. 
This would give public safety much greater capacity than it 
needs when it needs it the most. All 5 FCC commissioners agreed 
that the FCC's plan is the best approach for public safety. The 
FCC plan and the staff discussion draft would allow us to make 
a multi-billion dollar down payment on a nationwide network 
with the proceeds of the D Block auction. Although the funding 
contemplated in the discussion draft is a good start, I am 
committed to working with our colleagues and the Administration 
to find additional funding sources including future spectrum 
auction proceeds. Moreover, I hope the public safety is able to 
take advantage of the flexibility of the draft legislation to 
generate additional revenues through leasing fees and 
partnerships with critical infrastructure providers and other 
entities. I would like to thank your witnesses for their 
participation today. I look forward to your testimony.
    Mr. Boucher. Thank you very much, Chairman Waxman. The 
gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.
    Mr. Terry. I will waive my opening statement.
    Mr. Boucher. Thank you, Mr. Terry. We will add your time to 
your questioning period. The gentlelady from California, Ms. 
Eshoo, is recognized for 2 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for holding this 
hearing, and how the importance of it is more than obvious. We 
need to explore public safety inoperability issues especially 
with regard to E 911. And I would like to thank both the 
chairman and Mr. Shimkus for the kind remarks that they made 
about the legislation and the effort that we launched as co-
chairs of the E 911 caucus. The NG 911 bill provides essential 
funding for 911 grants to bring us past enhanced 911 and into 
the Next Generation where call centers and first responders 
have interoperable communications and the ability to use new 
technology to improve their response capabilities. We have done 
a lot of work on this legislation. We have met with industry 
and agency representatives to discuss their perspectives, and 
we have determined that the E 911 coordination office really 
should remain at NTSA to ensure the ongoing success of its 
work.
    So I look forward to this discussion. I think that we need 
to explore amending the draft public safety bill to provide 
directed funding for these call centers. This is an integral 
part of our public safety system in the country and to leave 
that out, I think really will leave our citizens in a lurch. 
These call centers deal with life and death issues every day so 
we are going to have to work hard on that and identify 
financial resources to achieve the goal, but to leave it out, I 
think we will pay a huge price for that. I also want to draw 
attention to the funding section of the draft public safety 
bill Title 3 where there seems to be language that would once 
again delay the use of the AWS 3 spectrum in the 2155-2180 
megahertz band. I have spoken numerous times about this issue 
on the need to roll out the fallow spectrum now instead of 
delaying its use with pie in the sky paring up plans.
    I don't think we can allow valuable spectrum to lie dormant 
for years. So I will support language that sets a date certain 
for the auction but since the FCC already has an established 
record to schedule the auction, I think we should have a much 
earlier deadline than the one specified in the draft bill. And 
I would like to ask unanimous consent to submit for the record 
a statement by M2Z who plans to bid on this spectrum and use it 
for nationwide wireless broadband life line. So we have a lot 
to discuss. I thank you for your leadership, Mr. Chairman, and 
I yield back any time that I might have.
    Mr. Boucher. Thank you very much, Ms. Eshoo, and without 
objection that statement will be received in the record. 
Actually, you owe us about a minute, but we will be generous in 
the repayment terms. The gentlelady from Tennessee, Ms. 
Blackburn, is recognized for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And, first of all, 
I want to join Mr. Stearns in expressing my disappointment in 
what is transpiring at the FCC as we speak with their short-
sighted efforts, in my opinion, to stifle innovation, destroy 
jobs, and to take over the Internet. It is an unnecessary step. 
Moving on, I am pleased that our committee is convening today 
to discuss public safety needs and spectrum on the D Block. I 
feel confident that we can find bipartisan support for this 
measure. I am certain that all of you are glad to see that 
there is bipartisan support, and I am encouraged that so many 
on this committee are advocating for an auction of spectrum, 
and I hope that my colleagues outside this committee will learn 
from what we are attempting to do, which is to reject an idea 
that we cannot pay for no matter how much merit there seems to 
be for that idea on the surface.
    While I strongly support public safety, having the spectrum 
and equipment it needs to effectively and efficiently do its 
job. Giving away valuable spectrum, quite frankly, is not 
affordable and not feasible at this time. In closing, I just 
want to make a couple of quick points. First, I would implore 
our friends in the industry to stand with us on this and not 
change their collective minds 3/4 of the way through the 
process. And, second, I would ask my colleagues to make the 
auction of spectrum available without any conditions attached, 
especially open access or limitations on who can bid on the 
spectrum. This would be bad policy and only reduce revenue to 
pay for the public safety network. With that, Mr. Chairman, I 
will yield back so that there is a little bit of time to apply 
toward Ms. Eshoo's time.
    Mr. Boucher. Thank you very much, Mrs. Blackburn. The 
gentleman from California, Mr. McNerney, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you for holding this hearing today, Mr. 
Chairman. As a representative of earthquake territory, I am 
keenly aware of the urgent need for first responders to be 
effectively communicating with one another and with the public 
in the event of a national disaster or other emergency, and I 
want to thank today's witnesses for sharing their expertise on 
this subject. H.R. 4829, the Next Generation 911 Preservation 
Act, is intended to help modernize and improve emergency 
services by providing support for the new technologies. And I 
commend my colleague, Ms. Eshoo, for her efforts. This morning, 
I will be listening for solutions that provide the greatest 
public benefit in safety. I have heard from many of my 
constituents including law enforcement professionals with 
strong views on the proposed legislation. It is vitally 
important that this network is built quickly, cost effectively, 
and meets all of our nation's police, firefighter, EMTs, and 
other first responder needs. With that, I yield back.
    Mr. Boucher. Thank you very much, Mr. McNerney. The 
gentleman from New York, Mr. Weiner, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you, Mr. Chairman, and I thank all the 
members of the panel. I would name them individually but when I 
would have no more of my 2 minutes left. There are a lot of you 
here, and I am glad that you are. I do want to particularly 
single out perhaps the most, one of the most important members 
of the panel, Deputy Chief Charles Dowd of the New York City 
Police Department, who every day has to deal in a real life way 
with the challenge of having communication infrastructure that 
supports 35,000 some odd police officers in a city of 8 million 
people that swells to about 12 million during every day, and 
doesn't have to think about the challenges of terrorism and 
communications in a crisis as an abstract because, frankly, we 
encounter it every day. Chief Dowd is someone who has dedicated 
his entire life to the safety and security of the people of New 
York City and those that visit it, and I want to thank him for 
being here.
    I am a sponsor of the King bill but I have great empathy 
for the position that Mr. Waxman takes that we do have to 
figure out a way to have a sustainable structure and I think 
that somewhere between the King language and Mr. Waxman's 
proposal to have some of it subject to auction, I think we can 
find common ground. The one thing we can't allow though is any 
more years of inertia here, and I think that is a common thread 
of statement by my colleagues on both sides of the aisle and I 
think all 16 members of the panel here will probably agree with 
that. And I think you, Mr. Chairman, for convening this 
hearing.
    Mr. Boucher. Thank you, Mr. Weiner. The gentlelady from 
Florida, Ms. Castor, is recognized for 2 minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Thank you very much, Mr. Chairman, and thank 
you to the witnesses who are here today. I am looking forward 
to hearing from you and learning more about what we can finally 
do to get a public safety network up and running. It is almost 
inconceivable that 9 years after the terrorist attacks of 
September 11 and after Hurricane Katrina the United States 
still doesn't have a National Public Safety Network. With the 
help of the 9/11 Commission, we have learned many lessons. We 
need a public safety network for our first responders whether 
they are fearless police officers, firefighters out there 
protecting our homes and businesses. I know there might be some 
disagreement about the best way to set up the network but I 
think we all agree that it is a national security priority, and 
it will be an invaluable asset to our community.
    So I would like to hear from you on what you believe is 
best. That is why we are here today. So I would like to raise a 
few questions for you all to consider as we move forward. 
First, I understand that the primary benefit of auctioning off 
the D Block and sharing spectrum with commercial providers is 
affordability. Without a spectrum auction, it could be very 
difficult to raise the money needed to build out a public 
safety network. So the question is will it be possible to raise 
funds for the network if there is no auction? What is the 
public safety community's proposed alternative for raising 
these funds in lieu of an auction. Second, operability is key 
to the success of the public safety network. What are the 
projected spectrum needs of the approximately 2 million first 
responders who will be using it? Will they need more than they 
have now? How will the operability be impacted by a sharing 
arrangement? Will logistical challenges necessarily be greater 
on a shared network?
    Time is of the essence. Every day that we do not have a 
fully operationable public safety network is a day that our 
communities are less safe than they should be. What is the time 
line for getting the network up and running under the current 
proposals laid out in the National Broadband Plan and what are 
the alternatives to that? So I want to thank you for 
considering these questions. I look forward to your testimony, 
and we are all grateful for your service day in and day out. 
Thank you, Mr. Chairman.
    Mr. Boucher. Thank you, Ms. Castor. The gentleman from 
Washington State, Mr. Inslee, is recognized for 2 minutes.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. I just think one task before us is 
to find the confidence of law enforcement if we are going to 
move forward. I have met with my local law enforcement 
community in Washington, and there are real concerns about 
assuring that, in fact, in any system like this, we, in fact, 
give priority to law enforcement or emergency responders on 
networks, number 1. Number 2, that there is total confidence 
that spectrum will be available as additional needs grow. And, 
third, there is some increasing interest in regional networks 
instead of maybe perhaps a national one in this regard. So I 
will be looking for ideas on how to win that confidence in any 
process in this regard, and I think we have a lot of work to do 
to try to reach that, and look forward to working with all the 
witnesses in that regard. Thank you.
    Mr. Boucher. Thank you very much, Mr. Inslee. The 
gentlelady from California, Ms. Harman, while not a member of 
our subcommittee is certainly welcome in our proceedings this 
morning, and I am pleased to recognize her for 2 minutes.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. I missed my service on 
this subcommittee because I think it deals with absolutely 
critical issues like this one. Like other senior members of 
this committee, I was here on 9/11. No one will forget that 
many, especially firefighters, died in New York City because 
the NYPD circling overhead could not communicate with them to 
tell them that the World Trade Center towers were glowing red 
and immediate evacuation was required. Nine years later as some 
have pointed out, we have still not fixed this problem. We have 
operability in some geographic areas like New York City and 
among D.C. area fire and police but we do not have a national 
interoperable emergency communications capability. As many 
know, my focus in Congress is security and I know how possible 
and devastating a series of near simultaneous terror attacks in 
the cities around the U.S. could be. We do not have the 
communications infrastructure we will need in that event.
    Unfortunately, as some have said, the legislation and 
administrative efforts so far have lagged. I co-authored with 
our former colleague, Curt Weldon, the Hero Act, to set a date 
certain for a transition to a national interoperability network 
space. We never got there. The DTV transition, which this 
committee was involved in, cleared the analog spectrum, but it 
doesn't have this capability up and running. The D Block 
auction failed, as some have pointed out. The PSIC bill, which 
I co-authored earlier this year, and Mr. Rush mentioned, is a 
success but it funds local projects. It doesn't fund a national 
interoperable network, and the bright spot is the E 911 effort 
that Ms. Eshoo has championed for years.
    But I just want to say that this new discussion draft is 
the best opportunity we have had to resolve the problem. It 
would generate funds to build out spectrum. It would give 
public safety priority access in roaming and insists on a 
network of networks. That is the key to making this 
interoperable. And, as I understand it, there is agreement on 
most issues but not all. I just want to say as a volunteer to 
this subcommittee for the morning, we must resolve the 
outstanding issues. We must enact the legislation. We must 
build out this network yesterday. And, in conclusion, everyone 
loses if we fail to do it. We all have family and friends in 
communities across the country, any of which could be a target. 
Their lives will depend on our prompt action and do the lives 
of firefighters and police. Thank you, Mr. Chairman, for 
letting me participate.
    Mr. Boucher. Thank you very much, Ms. Harman. We are happy 
to have you here this morning. I am pleased now to recognize 
our panel of witnesses, and I will say a brief word of 
introduction about each of them. Rear Admiral James Barnett is 
the Chief of the Public Safety and Homeland Security Bureau at 
the FCC. Mr. Charles Dowd is the Deputy Chief of the New York 
City Police Department's Communications Division. Mr. Jonathan 
Moore is the Director of Fire and EMS Operations and GIS 
Services for the International Association of Fire Fighters. 
Mr. Dale Hatfield is an Adjunct Professor in the 
Interdisciplinary Telecommunications Program at the University 
of Colorado at Boulder. Mr. Steve Zipperstein is the Vice 
President for Legal and External Affairs and General Counsel 
for Verizon Wireless. Mr. Joseph Hanley is the Vice President 
of Technology Planning and Services for Telephone & Data 
Systems, Inc. Mr. Coleman Bazelon is the Principal for the 
Brattle Group. And Mr. Brian Fontes is the Chief Executive 
Officer of the National Emergency Number Association.
    We welcome each of you this morning, and thank you for 
taking time to share your views on this urgent subject with us. 
Without objection, your full written statements will be made a 
part of our record of proceedings, and we would welcome your 
oral statement and ask that each of you keep that oral 
statement to approximately 5 minutes. Admiral Barnett, we 
welcome you this morning and we will be pleased to begin at 
your end of the table.

  STATEMENTS OF JAMES ARDEN BARNETT, JR., REAR ADMIRAL (RET.) 
   USNR, CHIEF, PUBLIC SAFETY AND HOMELAND SECURITY BUREAU, 
  FEDERAL COMMUNICATIONS COMMISSION; CHARLES F. DOWD, DEPUTY 
    CHIEF, NEW YORK CITY POLICE DEPARTMENT; JONATHAN MOORE, 
     DIRECTOR OF FIRE AND EMS OPERATIONS AND GIS SERVICES, 
  INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS; DALE HATFIELD, 
    ADJUNCT PROFESSOR, INTERDISCIPLINARY TELECOMMUNICATIONS 
PROGRAM, UNIVERSITY OF COLORADO AT BOULDER; STEVE ZIPPERSTEIN, 
    GENERAL COUNSEL, VERIZON WIRELESS; JOSEPH HANLEY, VICE 
  PRESIDENT, TECHNOLOGY PLANNING & SERVICES, TELEPHONE & DATA 
   SYSTEMS, INC.; COLEMAN D. BAZELON, PRINCIPAL, THE BRATTLE 
  GROUP; AND BRIAN FONTES, CHIEF EXECUTIVE OFFICER, NATIONAL 
                  EMERGENCY NUMBER ASSOCIATION

                   STATEMENT OF JAMES BARNETT

    Admiral Barnett. Thank you, Chairman Boucher, Ranking 
Member Stearns, and members of the subcommittee, including 
volunteers. Thank you for attaching my full testimony. We would 
also ask that the FCC's White Paper on capacity and on the cost 
model also be entered into the record.
    Mr. Boucher. Without objection.
    Admiral Barnett. Here is a summation of my testimony. We, 
as a Nation, must seize this brief technological opportunity to 
create a truly nationwide, truly interoperable broadband public 
safety network. And there is nothing that is inevitable about 
such a network, and if we are going to ensure and afford 
interoperability then we need to have a really well researched 
and comprehensive plan. The Navy transferred me to Washington, 
D.C. in October, 2001 when there was still a gaping hole inside 
of the Pentagon, and since as we now look at the 9th 
anniversary of 9/11 coming up and with all the other disasters 
the nation has faced in the meantime, we still do not have the 
level of interoperability for public safety that they 
desperately need.
    So as we move forward, we have to recognize that already 
billions of dollars have been spent in really energetic efforts 
and yet we are no closer. But now after considerable research 
and numerous communications and meetings with public safety 
leaders the National Broadband Plan recommends an innovative 
approach to solve the 911 interoperability problem once and for 
all. And I would ask that Sarah bring up the slide Appendix B. 
This shows some of the components of our plan. The core of the 
network is the 10 megahertz dedicated to public safety. We 
cannot think of this spectrum in terms of old technologies. 
With modern cell architecture, with the latest technologies, 
and with good spectrum management, 10 megahertz can actually 
perform like 160 megahertz would on the current public safety 
voice networks. This will provide more than enough capacity for 
day-to-day operations and for most emergencies.
    We also must plan for the worst emergencies, the next 9/11, 
and in thinking through that an additional 10 megahertz, merely 
adding 10 megahertz such as the D Block might not be enough to 
really handle the load, and that is why the FCC has proposed 
that public safety have the ability to have priority access and 
roaming overall into commercial networks. Now that means first 
in line privileges for up to 40, 50, maybe 60 additional 
megahertz. Another feature of this is that it provides an 
additional advantage in that it provides resiliency and 
redundancy for public safety networks in case they go down. 
This happened in D.C. back in March. So we have created an in-
depth cost model which shows the way to afford 99 percent 
population coverage for the network and to ensure an iron rule 
of interoperability, we have already stood up and established 
the Emergency Response Interoperability Center or ERIC, and we 
will work with public safety and with our federal partners to 
make sure that it is effective.
    Now it might surprise some to know how much agreement there 
is between public safety and the FCC's proposal. We agree on LT 
technology. We agree on the roaming and priority access. We 
agree on the interoperability center. We agree on the need for 
public funding. We need to make sure that there is in-building 
coverage, that it extends to inside buildings and the network 
at heart. And we agree that there should be early deployment. 
So the only major disagreement is on the D Block itself, and 
not all public safety even disagrees on that. Now Congress has 
indicated that we are to buy legislation currently that we are 
to auction the D Block, and here is why the FCC does not 
recommend reallocating the D Block. It will nearly destroy the 
commercial market for equipment and devices for public safety 
isolating public safety on a technological island the way they 
are today.
    It will vastly increase the cost of building the network 
for public safety by billions of dollars and it will increase 
the cost to public safety of operating the network by billions 
of dollars. And if the network is that much more expensive, as 
Chairman Waxman mentioned a minute ago, it will create a 
patchwork system across the country of haves and have nots. 
Perhaps some big cities may be able to afford it. Most rural 
areas will not. And if Sarah could bring up Appendix F, it also 
may mean that we would have more than 20, 25 years in order to 
spread the network across the network. And if it is not 
nationwide, then it is truly not interoperable. I think that 
some in public safety have this idea that they will be able to 
take the D Block and sublease it to carriers for some type of 
revenue and that would pay for the network.
    But unlike the FCC, no one has come forward with any type 
of cost model or business plan or financial analysis that shows 
this will work, and in our view the amount of revenue that 
would come in for some of the big cities would not be able to 
fund the entire network. Let me shift for a moment to Next 
Generation 911. H.R. 4829 and its companion bill in the Senate, 
3111, advanced the vision for the rapid deployment of Next 
Generation 911 as we move into the IP-based broadband world. We 
see it is entirely consistent with the National Broadband Plan 
and a necessary step forward, not only for public safety but 
for the safety of the public. Let me stop here. I look forward 
to your questions, and thank you again for the opportunity to 
address you today.
    [The prepared statement of Admiral Barnett follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.038
    
    [GRAPHIC] [TIFF OMITTED] 77915A.039
    
    [GRAPHIC] [TIFF OMITTED] 77915A.040
    
    [GRAPHIC] [TIFF OMITTED] 77915A.041
    
    [GRAPHIC] [TIFF OMITTED] 77915A.042
    
    [GRAPHIC] [TIFF OMITTED] 77915A.043
    
    [GRAPHIC] [TIFF OMITTED] 77915A.044
    
    [GRAPHIC] [TIFF OMITTED] 77915A.045
    
    [GRAPHIC] [TIFF OMITTED] 77915A.046
    
    [GRAPHIC] [TIFF OMITTED] 77915A.047
    
    [GRAPHIC] [TIFF OMITTED] 77915A.048
    
    [GRAPHIC] [TIFF OMITTED] 77915A.049
    
    [GRAPHIC] [TIFF OMITTED] 77915A.050
    
    [GRAPHIC] [TIFF OMITTED] 77915A.051
    
    [GRAPHIC] [TIFF OMITTED] 77915A.052
    
    [GRAPHIC] [TIFF OMITTED] 77915A.053
    
    [GRAPHIC] [TIFF OMITTED] 77915A.054
    
    [GRAPHIC] [TIFF OMITTED] 77915A.055
    
    [GRAPHIC] [TIFF OMITTED] 77915A.056
    
    Mr. Boucher. Thank you very much, Admiral Barnett. Mr. 
Dowd.

                  STATEMENT OF CHARLES F. DOWD

    Chief Dowd. Good morning, Chairman Boucher, Ranking Member 
Stearns, members of the subcommittee. I am Deputy Chief Charles 
Dowd, Commanding Officer of the New York City Police 
Department's Communications Division. On behalf of Police 
Commissioner Raymond Kelly, I want to thank you for the 
opportunity to discuss with you today the critical need for 
Congress to act to ensure that public safety agencies will be 
able to communicate effectively now and in the future. I speak 
today not only for the NYPD and the City of New York, but also 
on behalf of virtually all of my colleagues in public safety, 
represented by the 21,000 members of the International 
Association of Chiefs of Police, the 13,000 members, chiefs, of 
the International Association of Fire Chiefs, the National 
Sheriffs' Association, the Metropolitan Fire Chiefs, the Major 
Cities Police Chiefs, the Major County Sheriffs' Association, 
the Association of Public Safety Communications Officials, and 
the National Emergency Management Association.
    We are joined in this effort by the National Governors 
Association, the National Conference of State Legislatures, the 
Council of State Governments, the National Association of 
Counties, the National League of Cities, the U.S. Conference of 
Mayors, and the International City/County Management 
Association, and many others that I could not list here today. 
We jointly and urgently request that Congress take immediate 
action to reallocate and assign the 700 megahertz D Block of 
broadband spectrum directly to public safety, rather than 
conducting a public auction of this vital resource. We strongly 
support a bi-partisan bill introduced by Representative Peter 
King. This legislation, H.R. 5081, currently co-sponsored by 24 
members of the House, including Representative Anthony Weiner, 
vice Chairman of this subcommittee, would accomplish this 
purpose, and we ask that Congress swiftly approve the bill and 
send it to the President for his signature.
    In previous testimony before this committee, we have said 
that broadband technology will create a paradigm shift in 
public safety communications. The events in Mumbai, India and 
more recently in Times Square confirm the need for information 
sharing capabilities that will allow first responders to be 
effective in preventing such attacks. The ability to share 
information in real time on a local, state, and federal level 
is critical to that goal. The staff discussion draft referred 
to by this committee as the Public Safety Act of 2010 is 
fatally flawed legislation in that it calls for the auctioning 
of the D Block.
    It does address some of public safety's needs, as Admiral 
Barnett already mentioned, it does address some of public 
safety's needs designating other spectrum for auction with the 
proceeds being dedicated to public safety broadband. It also 
talks about the establishment of an advisory board under the 
FCC, which most of us in public safety agree is a good idea. 
Such an entity could be successful if comprised of public 
safety practitioners as decision makers. The section on 
flexibility and sharing of broadband spectrum is an idea also 
generally supported by public safety as a way to fund and 
maintain the network. However, we cannot agree with the bill's 
intent to auction a resource as critical to public safety as 
the D Block.
    Since the D Block spectrum is adjacent to the public safety 
broadband allocation it is uniquely desirable, as it can 
provide needed additional capacity simply and elegantly, and 
simply is important, without complicating network or handset 
design. Any alternative spectrum offered would be less 
desirable since additional components would be required which 
would dramatically increase the cost while reducing 
performance. Nonadjacent spectrum blocks will not provide as 
much throughput capacity as the D Block, since greater 
efficiency is achieved through spectrum aggregation. This is 
the essence of broadband. If adding sites were the solution to 
network capacity shortage, there would be no contention for, or 
market for the D Block. Rather than seeking additional 
spectrum, network operators would simply add more sites. This 
is clearly not the case.
    Allocating the D Block to public safety will also provide 
first responders with the bandwidth required for the eventual 
migration of mission critical voice to 700 LTE as envisioned in 
the National Broadband Plan. The NYPD shares this vision and 
looks forward to the day when public safety users can share a 
nationwide network that supports mission critical voice, video, 
and data on an integrated wireless network and abandon the web 
of disparate legacy networks that impedes interoperability 
today. The D Block is the cornerstone of the mission critical 
voice foundation. Without it, a mission critical voice and data 
network would not be possible. The City of New York filed a 
White Paper with the FCC describing the spectrum needs for an 
integrated voice and data network several months ago. As public 
safety experts, we contend that filing provided proof that the 
19 megahertz of dedicated spectrum is insufficient for public 
safety's needs during emergencies. We have submitted a copy for 
the record of this hearing.
    Our experience with commercial network failures tells us we 
need network control to ensure guaranteed access and security. 
Commercial networks are simply not built to the same standards 
of reliability and survivability as our public safety networks. 
In a timely 60 Minutes broadcast last Sunday, federal officials 
criticized the utility industry for failing to safeguard their 
networks and systems from intrusion and malicious software. It 
was clear that the biggest impediment to protecting the power 
grid was the utility's unwillingness to spend profits to secure 
their systems. What assurance do we have that commercial 
carriers will provide the adequate network security and robust 
build out that public safety requires and demands?
    And, by the way, again our experience over the years tell 
us that they will not. The nationwide network will be 
interconnected to confidential databases and secure servers 
that need to be protected. We need to have the option to build 
our own secure networks and manage the security of these 
networks ourselves.
    The public safety organizations mentioned at the beginning 
of my testimony are unified in the goal of establishing for the 
first time a nationwide interoperable mission critical voice 
and data public safety broadband network. They are not 
motivated by profit or politics. Their only motivation is the 
ability to serve the public they are sworn to protect. On 
behalf of those organizations, I thank you for your attention 
to this important issue, and I will be happy to answer any 
questions from the members of the subcommittee.
    [The prepared statement of Mr. Dowd follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.057
    
    [GRAPHIC] [TIFF OMITTED] 77915A.058
    
    [GRAPHIC] [TIFF OMITTED] 77915A.059
    
    [GRAPHIC] [TIFF OMITTED] 77915A.060
    
    Mr. Boucher. Mr. Moore.

                  STATEMENT OF JONATHAN MOORE

    Mr. Moore. Thank you, Chairman Boucher, Ranking Member 
Stearns, and distinguished members of the subcommittee. My name 
is Jonathan Moore, and I am the Director of Fire and EMS 
Operations and GIS Services for the International Association 
of Fire Fighters. I appreciate the opportunity to appear before 
you today on behalf of General President Schaitberger, and the 
nearly 300,000 fire fighters and emergency medical personnel 
who comprise our organization. Mr. Chairman, I testify today 
not only as a representative of the IAFF, but as a former fire 
fighter who understands the critical importance of effective 
and reliable public safety communications. While Congress and 
the FCC have taken important steps forward to establish a 
public safety broadband network, establishing such a network is 
only the top of the iceberg. Much work remains to be done to 
improve not only interoperable communications, but basic 
operable radio communications within individual police and fire 
departments.
    For years the IAFF has participated in the ongoing dialogue 
among members of the public safety community, 
telecommunications industry and elected officials about how to 
best utilize evolving communications technology. We believe 
that the broadband technology can provide public safety with 
the ability to quickly communicate complicated information and 
that the broadband plan proposed by the FCC will deliver a 
functional and affordable broadband network to public safety. 
We believe that the 10 megahertz currently allocated to public 
safety combined with roaming and priority access on the D Block 
and of the networks as proposed by the FCC will provide public 
safety with adequate capacity for every day use as well as 
large scale emergencies.
    Furthermore, because such partnerships will be required to 
meet the requirements established by the Emergency Response 
Interoperability Center, which itself will be advised by public 
safety, we have confidence that they will meet the public 
safety's mission critical standards. The argument that public 
safety needs 20 megahertz depends on a number of assumptions 
which are unlikely to occur, that a majority of public safety 
agencies will participate in the network and that a majority of 
agencies will utilize the myriad of applications envisioned for 
such a network. This sort of buy-in is unlikely to happen for 
several reasons, including use of alternate networks, personal 
preference, and, perhaps most importantly, cost.
    Perhaps the most important aspect of the FCC plan is the 
fact that it proposes both short and long-term funding 
mechanisms to help build and maintain the public safety 
network. The plan also ensures that the network is affordable 
to its users by leveraging commercial technology and utilizing 
the GSA schedule to provide reasonable benchmark rates for 
public safety equipment and network access. As public safety 
budgets nationwide face significant cuts in the current economy 
affordability is key to making any network interoperable on a 
nationwide level. Some in industry and the public safety 
community have suggested that the FCC plan is insufficient to 
meet public safety needs and instead recommend reallocating the 
D Block to public safety. While well intentioned, we believe 
that this proposal is not only unnecessary but unrealistic.
    As a case in point, the legislation reallocating the D 
Block to public safety has been introduced in the House by 
Representative Peter King. However, the bill proposes no 
funding mechanism to build or maintain the network. While we 
support the FCC plan and the establishment of a nationwide 
public safety broadband network building such a network will in 
no way address the real communication dilemma facing the 
majority of America's first responders achieving basic 
communications operability. The communications failures of 9/
11, Oklahoma City, and Katrina are often cited as proof of why 
a nationwide interoperable communications network is needed. 
Yet, these were not failure of interoperability but rather 
failures of basic operability.
    Despite the promise of broadband for the foreseeable future 
communications in the fire service will continue to be 
dependent on radio, and ensuring fire fighters have basic radio 
communications capabilities must continue to be our top 
priority. The safety of both fire fighters and the public 
depends on reliable, functional communication tools that work 
in the extreme environment in which fire fighters operate with 
zero visibility, in high heat or in self-contained breathing 
apparatus that distort the voice, and gloves that make 
operation of a complicated handset difficult. Fire fighters 
operate inside structures of varying sizes and construction 
types which have a direct impact on the ability of a radio wave 
to penetrate the structure and be interpreted by the receiver. 
It is precisely this environment that makes the application of 
new technology so challenging.
    Current digital radio technology, for example, is largely 
unintelligible on the fire ground. Any communications 
technology must take all of these factors into consideration. 
Communications technology must not only be reliable and 
functional, it must also be affordable. Fire departments will 
simply be unable to utilize new technology if it is too 
expensive. Focusing time and resources on fixing these and 
other basic communication issues will have a larger impact on 
public safety than will the establishment of any broadband 
network. Moreover, failure to address the challenges of 
communication on the fire ground will undermine the entire 
purpose of creating a broadband network. Thank you for the 
opportunity to testify before you today, and I am happy to 
answer any questions you may have.
    [The prepared statement of Mr. Moore follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.061
    
    [GRAPHIC] [TIFF OMITTED] 77915A.062
    
    [GRAPHIC] [TIFF OMITTED] 77915A.063
    
    [GRAPHIC] [TIFF OMITTED] 77915A.064
    
    [GRAPHIC] [TIFF OMITTED] 77915A.065
    
    [GRAPHIC] [TIFF OMITTED] 77915A.066
    
    Mr. Boucher. Thank you very much, Mr. Moore. Mr. Hatfield.

                   STATEMENT OF DALE HATFIELD

    Mr. Hatfield. Chairman Boucher, Ranking Member Stearns and 
members of the subcommittee, I am very pleased and honored to 
appear before you today to testify on the draft legislation 
that would provide funding for constructing and maintaining an 
interoperable public safety broadband network. My name is Dale 
Hatfield, and I am the Executive Director of the Silicon 
Flatirons Center for Law, Technology and Entrepreneurship at 
the University of Colorado at Boulder. While I have some other 
affiliations that are disclosed in my prepared remarks, my 
testimony here today reflects solely my own views and any 
recommendations that I offer should not be ascribed to any of 
the other institutions with which I am associated.
    I would be remiss if I did not begin my testimony by 
commending you for taking up an issue, the funding of a 
nationwide interoperable public safety broadband network that 
is so vital to the safety of life and property and to our 
homeland security. Past experience with large scale man-made 
and natural disasters have clearly demonstrated the price we 
may pay in the future without such an interoperable network. 
Moreover, the challenges we have had in the past in developing 
and deploying interoperable narrow band voice network for 
public safety use provide a warning of the hard work that lies 
ahead if we are going to realize the full benefits and vision 
by an interoperable public safety broadband network.
    Fortunately, in my opinion, legislation along the lines 
that has been set forth in the staff draft coupled with the 
recommendations and analyses presented in the National 
Broadband Plan provide the necessary policy direction, funding 
sources, and analytical framework to ensure the successful 
deployment of such a nationwide network. Turning to my written 
testimony, I focus there on 4 areas. First, I address the 
importance of taking into account commercial equipment and 
technologies and the evolution of commercial wireless networks 
in establishing rules to ensure the deployment of the 
interoperable network. More specifically, Section 101 of the 
discussion draft directs the Commission in adopting the rules 
necessary to achieve interoperability to consider, 1, the 
extent to which particular technologies and user equipment are 
or are likely to be available in the commercial marketplace, 2, 
the availability of necessary technologies and equipment on 
reasonable and non-discriminatory licensing terms, 3, the 
ability to evolve with technological developments in the 
commercial marketplace, and, 4, the ability to accommodate 
prioritization for public safety transmissions.
    As I explain more fully in my written testimony, I believe 
these provisions are essential to developing the 
interoperability public safety broadband network. Among other 
things, the network will benefit from the economies of scale, 
increased competition, and rapid technological advances 
associated with commercial marketplace, and also importantly 
because it will facilitate the ability of public safety users 
to roam onto and gain priority access to commercial networks in 
times of stress. Second, building upon some earlier testimony 
that I delivered to the subcommittee in December of last year, 
I address the importance of spectrum flexibility and sharing as 
raised in Section 103 of the discussion draft. I strongly 
support those revisions of the draft because I am convinced 
that we can no longer afford to leave vast stretches of 
valuable spectrum lying idle most of the time when there are 
technologies available to allow more efficient dynamic sharing 
of the resource while giving public safety entities access to 
large amounts of additional spectrum in extreme emergency 
situations.
    Third, I addressed the issue of the adequacy of the 10 
megahertz of spectrum in the 700 megahertz band that has 
already been allocated to public safety for broadband networks 
and having reviewed the White Paper on capacity requirements 
released by the Commission on Tuesday as well as some other 
documents. I state that I am in general agreement with the 
analysis contained therein. More specifically, I support both 
the conclusion that the 10 megahertz of spectrum already 
allocated is sufficient to meet the day-to-day and serious 
emergency broadband requirements for public safety, and the 
concept of allowing public safety entities to gain access to 
substantial amounts of additional spectrum through priority 
access to and roaming access across commercial broadband 
spectrum.
    Again, this is consistent with my strongly held belief that 
better spectrum management requires more efficient dynamic 
sharing of the increasingly scarce spectrum resource. Fourth, 
and, finally, I address several less over-arching issues which 
I wanted to call to your attention, but because they are not 
central to the main issues and in the interest of time, I will 
not address them in this oral statement. That concludes my oral 
statement, Mr. Chairman, and I will be happy to take questions. 
Thank you very much.
    [The prepared statement of Mr. Hatfield follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.067
    
    [GRAPHIC] [TIFF OMITTED] 77915A.068
    
    [GRAPHIC] [TIFF OMITTED] 77915A.069
    
    [GRAPHIC] [TIFF OMITTED] 77915A.070
    
    [GRAPHIC] [TIFF OMITTED] 77915A.071
    
    [GRAPHIC] [TIFF OMITTED] 77915A.072
    
    [GRAPHIC] [TIFF OMITTED] 77915A.073
    
    Mr. Boucher. Thank you very much, Mr. Hatfield. Mr. 
Zipperstein.

                STATEMENT OF STEVEN ZIPPERSTEIN

    Mr. Zipperstein. Thank you. Good morning, Chairman Boucher, 
Ranking Member Stearns, and members of the subcommittee. It is 
a privilege to be here with you today. In the 9 years since the 
9/11 attacks public attention has focused on the need for 
effective interoperable first responder communications. 
Congress actually began to address this important issue 12 
years ago in 1997 when it enacted legislation to reallocate 
certain 700 megahertz spectrum for public safety's use. Today, 
we endorse the work being done to continue those efforts by 
implementing a nationwide interoperable public safety broadband 
network that is effective, efficient, and sustainable. The 
FCC's National Broadband Plan delivered in March is a watershed 
event for public safety because it promises to change forever 
the way public safety officials communicate. By constructing a 
nationwide public safety broadband network, it will ensure that 
all first responders in all parts of the country, including 
rural America, will benefit from the broadband revolution.
    The FCC's plan provides several important benefits. First, 
it establishes a national framework for a network of networks 
with common technology and operational standards to ensure 
interoperability across the United States. Second, it leverages 
the benefits of commercial technologies which will mean lower 
costs and more rapidly available equipment. Third, it promotes 
public, private partnerships that will enable public safety to 
leverage the considerable investments of the private sector. 
Public safety will have the ability to choose from many 
prospective partners whether or not they hold licenses in the 
700 band.
    In addition to Verizon Wireless, many other players in the 
industry, a wide variety of industry associations, including 
rural associations, have all endorsed this leveraged network 
approach. Fourth, the FCC plan will advance broadband 
deployment in rural areas by providing funds for new facilities 
where they are needed and promoting flexible partnerships to 
maximize those investments. This is the same kind of approach 
that we announced recently with our program to advance LTE in 
rural America under which Verizon Wireless will work 
collaboratively with rural companies to build and operate 
fourth generation networks where they currently have or plan to 
build their own infrastructure. Given the merits of a 
nationwide interoperable public safety broadband network, we 
commend the subcommittee and the staff for promptly considering 
legislation to authorize federal funding to support the 
construction and operation of such a network.
    We agree that the best way to fund this network is through 
future spectrum auctions. Given the FCC's aggressive plan for 
making new commercial spectrum available over the next decade, 
we believe there will be more than ample revenues to support 
the National Public Safety Network and other important 
legislative initiatives. The last two auctions alone raised 
nearly $33 billion, and that was a lot less than 500 megahertz 
of spectrum. By ensuring an adequate supply of spectrum for the 
future an enabling companies to acquire and use the spectrum 
without restrictions, Congress will maximize the future auction 
revenues. So while the FCC's plan indeed is visionary, we 
disagree with it in just one respect. We do not believe it 
provides the spectrum necessary to ensure its successful 
implementation.
    As Chief Dowd has testified this morning, a broad alliance 
of public safety and state and local government organizations 
and the Attorney General of the United States have all 
concluded that public safety will need more spectrum to support 
the wide array of broadband applications that first responders 
will use in the future to protect us. The FCC did release a 
White Paper this week reaching the opposite conclusion, but 
even the FCC's own study concedes that public safety will need 
additional spectrum during times of emergency, yet the FCC 
concludes that during those times when effective communication 
is most crucial public safety should be reliant on commercial 
networks, a conclusion that most in the public safety community 
believe defeats the very purpose of building a nationwide 
public safety network.
    It should come as no surprise that public safety now needs 
more spectrum than Congress or anyone else envisioned when it 
designated the original allocation 13 years ago. Much has 
changed in the wireless world during that time. Thirteen years 
ago few people had ever heard of text messaging, yet today 
billions and billions of text messages traverse our wireless 
networks daily. Thirteen years ago, we were all using First 
Generation narrow band voice technology. Today, we are 
embarking on the transition to 4G technology, broadband 
technology that will support a wide array of data multimedia 
and video applications that public safety needs to protect us. 
Public safety should not be limited from taking advantage of 
these technological advancements because it doesn't have enough 
spectrum.
    So members of the subcommittee, great progress has been 
made. We applaud the progress. We applaud the draft legislation 
because it does solve 2 of the 3 critical components needed to 
address this issue, funding and infrastructure. All that is 
needed is sufficient spectrum. The FCC's broadband plan calls 
for almost 500 megahertz of additional spectrum over the next 
10 years. The D Block is just 2 percent, only 2 percent, of 
that 500 megahertz of spectrum. We should consider the D Block 
an investment in public safety and investment in our future. 
The taxpayers own it today. They will continue owning it in the 
future. Finally, Mr. Chairman, I am pleased to announce that 
Verizon Wireless wholeheartedly supports H.R. 4829, the Next 
Generation 911 bill.
    [The prepared statement of Mr. Zipperstein follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.074
    
    [GRAPHIC] [TIFF OMITTED] 77915A.075
    
    [GRAPHIC] [TIFF OMITTED] 77915A.076
    
    [GRAPHIC] [TIFF OMITTED] 77915A.077
    
    [GRAPHIC] [TIFF OMITTED] 77915A.078
    
    [GRAPHIC] [TIFF OMITTED] 77915A.079
    
    [GRAPHIC] [TIFF OMITTED] 77915A.080
    
    [GRAPHIC] [TIFF OMITTED] 77915A.081
    
    [GRAPHIC] [TIFF OMITTED] 77915A.082
    
    [GRAPHIC] [TIFF OMITTED] 77915A.083
    
    [GRAPHIC] [TIFF OMITTED] 77915A.084
    
    [GRAPHIC] [TIFF OMITTED] 77915A.085
    
    [GRAPHIC] [TIFF OMITTED] 77915A.086
    
    [GRAPHIC] [TIFF OMITTED] 77915A.087
    
    Mr. Boucher. Thank you very much, Mr. Zipperstein. Mr. 
Hanley.

                   STATEMENT OF JOSEPH HANLEY

    Mr. Hanley. Good morning, Chairman Boucher, Ranking Member 
Stearns, and members of the subcommittee. Thank you for the 
opportunity to be here today. My name is Joe Hanley and I am 
Vice President at TDS, parent company of U.S. Cellular. U.S. 
Cellular serves over 6 million customers and has received 9 
consecutive J.D. Power awards for highest call quality in the 
north central region. We are members of the Rural Cellular 
Association, as well as CTIA, the Wireless Association. In 
addition to commercial users, our networks serve hundreds of 
public safety agencies throughout the country. Like other 
wireless carriers, we need more spectrum fourth generation 
services. U.S. Cellular is prepared to bid in future auctions, 
especially the D Block. We, therefore, applaud the committee 
for its leadership in identifying 2 bands for auction and look 
forward to working with the committee to enact the legislation.
    When I testified before this committee last fall, I laid 
out 2 fundamental goals providing interoperable broadband for 
public safety and fostering a competitive market for commercial 
broadband services. Old goals remain essential to the public 
interest, and I am pleased to say that both are advanced by the 
proposals in the National Broadband Plan and by the committee's 
bipartisan legislation. U.S. Cellular strongly supports the 
proposal to dedicate auction proceeds to fund the public safety 
network. We have long advocated for a win-win solution, one 
that delivers on the promise of a public safety broadband 
network but also one that fosters competitive mobile broadband 
for all American consumers, urban and rural. The question has 
always been funding. The legislation's innovative proposal to 
use proceeds from 2 auctions is an important step forward. 
Congress should pass this legislation and the FCC should move 
quickly to implement it.
    Let me make 2 specific comments about how Congress should 
direct FCC to structure these auctions. First, it is critical 
the licensed areas be reasonably sized. Smaller licensed areas 
will bring in more bidders and generate more revenue, which 
means more resources for the public safety network. 
Furthermore, small licensed areas will allow local public 
safety officials to pursue partnerships with locally strong 
carries who especially in rural areas often have the best 
networks and the greatest commitment to the local community. 
The 700 megahertz auction offered the D Block as a national 
license. It also made the C Block less competitive and 
generated lower revenues by using mega regional licenses 
subject to package bidding.
    By contrast, a D Block auction with area licenses would 
attract many carriers, large and small, that could build on 
their existing assets in each area. With the resources of 
multiple operators network deployment will be faster, more 
extensive and more reliable with no single point of failure. We 
support cellular market areas or CMAs or is the second choice 
the slightly larger economic areas or EAs. Second, the auction 
procedures must be straightforward and fair, not biased in 
favor of large bidders. The 700 megahertz auction used packaged 
bidding, a procedure that allows large bidders to trump small 
ones by bidding on all or nothing packages of licenses. As the 
experience of this auction demonstrates packaged bidding only 
serves to create opportunities for the largest bidders to 
exploit the rules and shut out smaller bidders. Smaller license 
areas free of package bidding rules are equally accessible to 
everyone and produce much higher revenues.
    For instance, the B Block generated $9.1 billion using 
CMAs, but the C Block, which is 12 license areas, generated 
only $4.7 billion for nearly twice as much spectrum. In 
conclusion, U.S. Cellular strongly supports the committee's 
draft legislation and the FCC's plans to auction D Block 
licenses. The proposed legislation charts the best course by 
funding public safety mobile broadband networks while promoting 
competition in the auction and in the market for wireless 
services. The FCC should expeditiously auction the D Block 
using CMA or EA licenses and no packaged bidding. U.S. Cellular 
is prepared to bid on D Block area licenses, pursue 
partnerships with public safety and deeply advance services to 
American's consumers and businesses. Thank you for the 
opportunity to provide this testimony, and I look forward to 
your questions.
    [The prepared statement of Mr. Hanley follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.088
    
    [GRAPHIC] [TIFF OMITTED] 77915A.089
    
    [GRAPHIC] [TIFF OMITTED] 77915A.090
    
    [GRAPHIC] [TIFF OMITTED] 77915A.091
    
    [GRAPHIC] [TIFF OMITTED] 77915A.092
    
    [GRAPHIC] [TIFF OMITTED] 77915A.093
    
    [GRAPHIC] [TIFF OMITTED] 77915A.094
    
    [GRAPHIC] [TIFF OMITTED] 77915A.095
    
    [GRAPHIC] [TIFF OMITTED] 77915A.096
    
    [GRAPHIC] [TIFF OMITTED] 77915A.097
    
    [GRAPHIC] [TIFF OMITTED] 77915A.098
    
    Mr. Boucher. Thank you, Mr. Hanley. Mr. Bazelon.

                  STATEMENT OF COLEMAN BAZELON

    Mr. Bazelon. Thank you. It is an honor to speak here today. 
Two years ago I testified before this committee on the outcome 
of Auction 73, the 700 megahertz auction. At that time I said 
as for the pending decisions about the D Block, the worst thing 
would be to leave it unused. Freeing it for unrestricted 
commercial use, configuring it as smaller geographic licenses, 
and then auctioning it would be best. This would have the 
benefit of adding more commercial spectrum under flexible 
license to the band, which would allow a portion of the 
significant unmet demand from Auction 73 to be met. This 
approach, of course, would require that the needs of public 
safety community be met through other means. My conclusions 
then still hold today. The D Block should be auctioned for 
unrestricted commercial uses and public safety's needs should 
be directly funded. Consequently, I congratulate the 
subcommittee on the draft of the Public Safety Broadband Act of 
2010 for the significant progress it makes in getting the D 
Block auctioned for commercial uses and directly addressing the 
issue of funding public safety networks.
    Forecasting spectrum license auction receipts is not for 
the faint of heart. Significant uncertainty about future 
wireless market conditions, as well as details of licensing and 
auction rules, requires that any forecasts of spectrum values 
and auction receipts have a wide confidence interval. 
Nevertheless, a good idea of spectrum value can be derived by 
observing recent sales, and adjusting for quality differences 
and changing market conditions. By my estimates, a well-
structured competitive auction of the D Block could be expected 
to raise $3 billion to $4 billion in revenue. Such estimates 
assume a well-designed, unconstrained auction. Specifically, my 
calculations assume small licenses, no package bidding or open 
access obligations, and unrestricted entry in the auction.
    Dropping any of those assumptions would be expected to have 
a negative impact on auction revenues. I also want to say a 
brief word about the value of the discussion draft's auction of 
25 megahertz of the 1675 to 1710 band paired with the 2155, 
2180 band. Without knowing the timing and cost of reallocating 
the federal users from the lower portion of the band, it is 
difficult to put a value on this pair of bands. Nevertheless, a 
reasonable, initial estimate for the value of the spectrum 
identified in the discussion draft would be around $7.5 billion 
for 50 megahertz paired. Combined with the D Block revenues the 
discussion draft identifies approximately $11 billion in 
revenue from spectrum auctions.
    I would also like to say a word about auctions of 
additional bands of spectrum. In addition to the 2 bands noted 
above, there are many more bands of radio spectrum that could 
potentially be licensed and auctioned. The National Broadband 
Plan identified several bands and there are others to consider 
as well. Decisions about specific allocations and pairing of 
spectrum band should consider the full set potential bands 
available for reallocation. Also, getting additional spectrum 
commercially licensed will benefit public safety in at least 2 
ways. First, additional competition in the provision of mobile 
broadband services increases the potential partners for public 
safety reducing cost and increasing the range of services that 
they can use. Second, a better connected public is a safer 
public. Just as the proliferation of cell phones supports 
public safety's mission, the increasing use of mobile broadband 
by the public will further enhance public safety community's 
ability to respond to future emergencies.
    Finally, as a former Congressional Budget Office analyst, I 
would like to comment briefly on the scoring of revenue to fund 
public safety infrastructure and operations. The scorable value 
of any directed spectrum auction is only the increase in value 
from the legislation over the baseline revenue estimates from 
the sale of the spectrum. Consequently, the roughly $11 billion 
in potential auction receipts identified in the discussion 
draft will likely have a score of a few billion dollars less. 
Thank you.
    [The prepared statement of Mr. Bazelon follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.099
    
    [GRAPHIC] [TIFF OMITTED] 77915A.100
    
    [GRAPHIC] [TIFF OMITTED] 77915A.101
    
    [GRAPHIC] [TIFF OMITTED] 77915A.181
    
    Mr. Boucher. Thank you, Mr. Bazelon. Mr. Fontes.

                   STATEMENT OF BRIAN FONTES

    Mr. Fontes. Good morning, Chairman Boucher, Ranking Member 
Stearns, members of the subcommittee. My name is Brian Fontes, 
and I am CEO of the National Emergency Number Association, 
NENA. NENA represents more than 7,000 dedicated 911 and 
emergency communications professionals who receive and manage 
nearly 250 million 911 calls annually. NENA members are the 
first link in he emergency response chain that so many 
Americans rely on every day. I would like to thank the House 
co-chairs of the Congressional 911 Caucus, both members of this 
subcommittee, Representatives Eshoo and Representative Shimkus, 
for their commitment to advancing 911 and emergency 
communication systems, most recently by introducing the Next 
Generation 911 Preservation Act of 2010, which NENA fully 
supports.
    NENA thanks the subcommittee for holding today's hearings. 
It is fitting that the subcommittee is simultaneously 
addressing 911 legislation and a draft bill to provide for a 
nationwide wireless public safety broadband network. The public 
must be able to rely on effective 911 and emergency response 
systems, and in the broadband world these two are joined. This 
requires the most technologically advanced 911 systems and 
access to high speed wireless broadband networks for emergency 
responders. The 2 pieces of legislation the subcommittee is 
addressing today have potential to improve our nation's 911 and 
emergency communications capabilities. Millions of 911 calls 
are made every year by citizens who are increasingly utilizing 
innovative forms of voice, video, data services. Yet, today 
most 911 centers are primarily limited to voice only 
communications, and this is simply unacceptable.
    It is essential that we improve access to 911 for all 
Americans, especially for the deaf, hard of hearing, and 
individuals with speech disabilities who regularly communicate 
with non-traditional text, video, and instant messaging 
communication services, and who also expect that these services 
will be able to connect directly to 911. For all these reasons 
and more, it must be a national priority to foster the 
migration from 20th century 911 and emergency communication 
system into a broadband enabled IP emergency services model 
that embraces all voice, video, and data applications. The Next 
Generation 911 Preservation Act of 2010 will help foster this 
transition. This legislation builds upon and extends several 
elements in the Enhanced 911 Act of 2004, and will help 
accelerate the nationwide transition to Next Generation 911 
systems.
    While we support the legislation, there are a few minor 
modifications, and I assure you they are just minor and we have 
already provided those recommendations to the staff for the co-
sponsors as well as the committee, and we look forward to 
working with the committee on that. Also, while the current 
bill, as written, would place the leadership of the national 
911 office within the National Telecommunication Information 
Administration. As Representative Eshoo said, we are aware that 
the co-sponsors of the bill have discussed making this office a 
joint program office by adding the administrator of the 
National Highway Traffic Safety Administration. This would 
essentially be a continuation of the current structure of the 
National 911 Office as established in the Enhanced 911 Act of 
2004. NENA would support this modification to the bill, and we 
look forward to working with the committee staff, and we thank 
you for your interest in this legislation.
    Now with respect to the discussion draft for the Public 
Safety Broadband Act of 2010, NENA has consistently encouraged 
the FCC and Congress to ensure that any actions taken provide 
at least the following. First, a public safety wireless 
broadband network or network of networks must be built 
nationwide. Second, funding for the nationwide wireless public 
safety broadband network basis both on a construction cap ex 
basis and maintenance op ex basis must be provided. The 
National Broadband Plan outlines several essential steps 
necessary to achieve a nationwide wireless public safety 
broadband network, including some issues that only Congress can 
address. First and foremost is the critical issue of funding, 
NENA's number 1 priority in this debate.
    NENA urges Congress to address the draft legislation's 
recommendations to make near term funding available for public 
safety broadband systems and to ensure that funds are available 
on a sustainable and annually recurring basis. Such action will 
ensure that broadband networks are built and maintained and 
effectively serving all areas of the country. With the release 
of the discussion draft this week, it is clear that you intend 
to do just that, to address public safety's broadband funding 
needs. We thank you for releasing this draft discussion item, 
and we hope that it will do just that, generate discussion 
resulting in the establishment of a nationwide public safety 
broadband network and the funding to build and operate that 
network. We stand ready to work with you, the Commission, and 
our colleagues in public safety on this important issue. Thank 
you.
    [The prepared statement of Mr. Fontes follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.102
    
    [GRAPHIC] [TIFF OMITTED] 77915A.103
    
    [GRAPHIC] [TIFF OMITTED] 77915A.104
    
    [GRAPHIC] [TIFF OMITTED] 77915A.105
    
    [GRAPHIC] [TIFF OMITTED] 77915A.106
    
    [GRAPHIC] [TIFF OMITTED] 77915A.107
    
    [GRAPHIC] [TIFF OMITTED] 77915A.108
    
    [GRAPHIC] [TIFF OMITTED] 77915A.109
    
    Mr. Boucher. Thank you very much, Mr. Fontes. And thanks to 
all of our witnesses for being with us this morning and sharing 
your views on this matter. Mr. Barnett, I am going to being my 
questioning with you. The public safety community at the 
present time holds 10 megahertz in the 700 block that has been 
designated for broadband communications. Your analysis shows 
that that holding is sufficient for the broadband network and 
Mr. Dowd, Mr. Zipperstein and others have recommended that 
additional spectrum be provided to public safety for that 
purpose. So that we can get an empirical sense of whether the 
10 megahertz is sufficient, I wonder if you have any numbers 
that shows the number of first responder users per megahertz at 
10 megahertz as compared to the number of commercial users in 
the commercial 700 megahertz spectrum holding given the number 
of megahertz that is designated for commercial holders in the 
700 megahertz block. Simply stated, would there be more public 
safety users in their megahertz or would there be more 
commercial users in the commercial block that is available? Do 
you happen to have those numbers?
    Admiral Barnett. Mr. Chairman, I think what I can tell you 
is that per megahertz the commercial networks cover vastly more 
users than there will be users in the public safety spectrum, 
so the way that we calculated, and I think you may be 
referencing this in the capacity White Paper, there are about 2 
million users in public safety or at least you could estimate 
that. There may be fewer at any particular time, 10 megahertz, 
so that is where we are considering there will be about 200,000 
users per megahertz.
    Another way of looking at those on the commercial side 
there is about 547 megahertz across all the spectrum, and so 
when you do the divisional map that is about 530,000 users per 
megahertz. When you compare that to the 97 megahertz that 
public safety has across all spectrum, that is only about 
21,000. So in some ways what you can think of this is that 
there are 25 times the number of users for commercial for 
megahertz than there are for, in essence, public safety users.
    Mr. Boucher. And so your conclusion from that is that 
public safety would have ample megahertz available with 10 
megahertz devoted to broadband?
    Admiral Barnett. Absolutely. For day-to-day and for most 
emergencies, and as we mentioned you can design scenarios where 
it will really stress any system, any system that I would 
design, any system that Chief Dowd would design, but that is 
why we did have the ability to roam over with priority access.
    Mr. Boucher. OK. Chief Dowd or Mr. Zipperstein, do you want 
to make any comment with regard to those numbers?
    Chief Dowd. Well, I guess my comment, Mr. Boucher, would be 
what relevance does it have to public safety? Public safety 
systems are used very differently than the commercial systems. 
We use our radio systems in a way that, quite frankly, if you 
are going to compare it to commercial usage is very 
inefficient. But you have to look at the criticality of the 
systems and what we are doing on them and what has to happen on 
them. You know, the FCC has issued a White Paper. You know, it 
only came out 48 hours ago, so we really haven't had a chance 
to go into it in depth, but the City of New York filed a White 
Paper back in February with the FCC, and, you know, as public 
safety experts and having already built a broadband system in 
the City of New York and utilized some of the information from 
that system, we came to the conclusion clearly that 10 
megahertz of spectrum is simply not enough for public safety. 
And that is not just in a large scale place.
    Mr. Boucher. OK. Thank you. My time is limited. I think we 
have the sense of your answer. Mr. Zipperstein, I will give you 
an opportunity very briefly if you want to add to that.
    Mr. Zipperstein. I would simply say that commercial 
networks are more efficient but I completely agree with Chief 
Dowd that the average commercial user is using far less 
bandwidth than with the average public safety user in a 
broadband environment. AT&T has had very well-publicized 
problems with its network in San Francisco and New York as a 
result of very high bandwidth users. And in the public safety 
world----
    Mr. Boucher. That is in the 3G network and we are merging 
into the era of 4G and LTE technology now which is the standard 
for public safety. That is really talking about a whole other 
generation.
    Mr. Zipperstein. That is right, Mr. Chairman.
    Mr. Boucher. Let me come to--my time is limited. Public 
safety now has 10 megahertz dedicated to broadband. It has 12 
megahertz dedicated to narrow band. All of that is in the 700 
block. It has 2 megahertz used as guard bands to protect from 
interference for a total of 24 megahertz. The 24 megahertz are 
all contiguous, so if, in fact, more megahertz than that has 
been assigned for broadband is needed for broadband, why not 
aggregate at least 22 out of the 24 leaving a couple for 
guarding and simply have the voice function be delivered over 
VOIP data standard, which LTE is, and why would that not be a 
satisfactory means of providing more spectrum if, in fact, 
public safety feels like it needs it? Mr. Dowd, do you want to 
comment?
    Chief Dowd. Sure. The problem with that is that that plan 
was established several years ago, and that spectrum is 
dedicated at this time at least for land mobile radio systems, 
narrow band systems, which by the way is a mandate that exists 
from the FCC as far as certain agencies like the NYPD have----
    Mr. Boucher. Let me just interject. We are looking at a 10-
year time horizon to achieve all of this, and within that 10-
year horizon why could you not migrate the narrow band 
offerings that you have on that 12 megahertz at the present 
time to broadband if, in fact, you need more megahertz for the 
broadband?
    Chief Dowd. Because the answer is we need it now. So we are 
looking at building a broadband network and an effective 
broadband network that has enough capacity to do what we need 
to do as we go into that new technology and these are things 
and information that we shared before. So if you are telling us 
to wait 10 years for that spectrum, our answer is we really 
can't. Maybe somebody else can wait 10 years, maybe the 
commercial side, if that ultimately becomes available because 
everybody ultimately migrates from land mobile radio to 
broadband.
    Mr. Boucher. Here is the other part of that question 
though. Why could you not even immediately with the 10 
megahertz that you have deploy your broadband technology and 
then use VOIP as the means of offering the narrow band voice 
service over the broadband technology so you are using LTE data 
standard. You would use that for voice, video and data using 
the voice as a VOIP application. Why could you not do that?
    Chief Dowd. Well, because these things have not been 
perfected as mission critical capabilities.
    Mr. Boucher. You are saying VOIP is not?
    Chief Dowd. Yes.
    Mr. Boucher. Do you think VOIP is not sufficient for the 
kind of voice service you would need?
    Chief Dowd. Not at this point, no.
    Mr. Boucher. All right. Mr. Barnett, do you have any 
comment?
    Admiral Barnett. Yes, sir. We do need to look over the 
horizon and I think that is what the concept of being flexible 
in the use of the narrow band. There are not many that are 
built out in the narrow band part of the 700 megahertz spectrum 
right now. We even got a letter from a chief of police in Sandy 
Springs, Georgia asking whether or not they might be able to do 
just that so we do need to look at for the near term and for 
that 10-year horizon whether or not public safety at its 
choice, at its option, could use some of that spectrum and we 
are thinking about how to pursue that.
    Mr. Boucher. All right. Thank you very much. My time has 
expired. The gentleman from Florida, Mr. Stearns, is recognized 
for his questions. Mr. Stearns has reminded me we have a series 
of recorded votes pending on the floor of the House, 3 votes in 
total. This will consume the better part of 15 to 20 minutes 
for us, and so we will ask your indulgence while we respond to 
those votes, and we will be back as soon as we can.
    [Recess.]
    Mr. Boucher. I would ask the witnesses if they could resume 
their places at the table. When we recessed, my questions had 
been posed to our witnesses, and I am pleased to recognize now 
the gentleman from Florida, Mr. Stearns, for his questions.
    Mr. Stearns. Thank you, Mr. Chairman. If anybody didn't 
completely answer your question, I would be glad to allow you 
any extra time because I think you had some very good 
questions. Is there anything that has to be resolved on your 
questions?
    Mr. Boucher. Well, thank you, Mr. Stearns. I guess at the 
moment it is just the two of us and so we are not impinging on 
anyone else's time except our witnesses. I do have one other 
question that I will just take this opportunity to pose. 
Admiral Barnett, in your recommendations you had talked about 
priority access being provided to first responders over some 
additional 700 megahertz spectrums, and I wonder if you could 
be a little more specific about where else you would see that 
priority access pertaining, in other words, what other 700 
megahertz spectrum would that apply to and whose hands would 
that be? And what does priority access actually mean? How would 
that work in practice? What are the circumstances under which 
it would apply and how would you see that impacting the 
commercial use of the spectrum to which it applies?
    Admiral Barnett. Mr. Chairman, let me say first some of the 
things you are asking about still need to be worked out and it 
will be the subject of rulemaking where we will get input from 
public safety and from industry as well. Certainly we look at 
priority access and roaming onto the D Block. We would think 
that that would need to be something that would be a condition 
on the sale of the D Block, as well as creating devices that 
would see both the D Block and the public safety spectrum. We 
would also see, and we have looked at how this would happen is 
roaming over onto, in essence, Verizon, AT&T and others 
carriers in the 700 megahertz, so that, in essence, public 
safety would have its choice. It could contract with the D 
Block licensee for roaming and priority access. It could 
contract with all of them for that. It basically provides as 
much choice as possible.
    Mr. Boucher. That would be on a contractual basis?
    Admiral Barnett. Yes, sir. And the way that this works is 
that there would also be compensation. Carriers would be 
compensated for it. We would think that that would need to be 
at the most favored customer level. That is why we do think 
that there needs to be a look at how the cost of operating the 
network will be very important.
    Mr. Boucher. Just to clarify. You are proposing that on a 
purely voluntary basis, not a mandatory basis?
    Admiral Barnett. It would be mandatory on the carrier if 
public safety wants to contract with that particular carrier. 
That is the way we are looking at it so that it becomes public 
safety's choice on that. If public safety wants to contract 
with them then the carrier would need to provide that.
    Mr. Boucher. And the terms of the contract would specify 
the compensation that would be provided and possibly other 
terms of service?
    Admiral Barnett. Yes, sir.
    Mr. Boucher. There would be no choice but to enter into the 
contract.
    Admiral Barnett. Yes, sir. That would be a requirement and 
we think that that is reasonable. One of the things that LTE 
will offer is 15 levels of priority service, and so the things 
that have--and it is not the old circuit switch technology. As 
soon as public safety accesses the network the packets begin to 
flow and they get first in line privileges. The same would be 
true for 911 calls. And so it is not that you are cutting off 
any calls on all the rest of the network at that point so, you 
know, my kids or something like that playing video games, that 
performance goes down so that the performance of the public 
safety cost and the 911 cost would go up.
    Mr. Boucher. All right. Thank you very much. Thank you, Mr. 
Stearns. You are recognized for your questions.
    Mr. Stearns. Thank you, Mr. Chairman. I request unanimous 
consent to submit for the record a letter that 16 members of 
this committee from both sides of the aisle sent to the FCC in 
June, 2007 warning that a harmful condition would hurt the 700 
megahertz auction, a prediction that came true.
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. This is a question for Mr. Bazelon and Mr. 
Zipperstein. I know you list as your first choice auctioning 
off the D Block and funding the public safety network through 
the proceeds. There has been lots of talk by the FCC about debt 
neutrality, imposing that. If that was implemented by the FCC 
as part of the auction and other conditions, would that reduce 
the proceeds of the auction? Mr. Zipperstein, first.
    Mr. Zipperstein. Yes. It is fair to say that any time 
spectrum is encumbered with conditions that the likely revenue 
to be gained by the Treasury will be lower than spectrum 
auction free and clear of any conditions.
    Mr. Stearns. And the conditions besides network neutrality, 
what other conditions do you think which would be harmful?
    Mr. Zipperstein. Well, for example, in the first attempt to 
auction the D Block back in 2008 there were a number of 
conditions that had nothing to do with network neutrality, 
conditions on the winner in terms of building a public safety 
network, those sorts of things. And we had over 250 rounds of 
bidding in that auction. There was only one bid for the D 
Block, and it was less than half of the reserve price.
    Mr. Stearns. Mr. Bazelon.
    Mr. Bazelon. I agree that in general when you reduce the 
returns to investment, the investment is worth less, and if net 
neutrality regulations are applied to the wireless sector and 
it reduces the returns to the network operators they are going 
to pay less for the spectrum for the privilege in the first 
place.
    Mr. Stearns. Mr. Barnett, are there any comments you would 
like to add?
    Admiral Barnett. Mr. Stearns, I am not your expert on 
auctions and their proceeds. The main thing that I think we 
focused on and my particular is on the interoperability making 
sure that it is nationwide.
    Mr. Stearns. OK. Admiral Barnett and Mr. Hatfield, if we 
auction the D Block rather than dedicate it to public safety, 
how much faster and how much more cheaply can we deploy 
interoperable broadband public safety networks to cover the 
entire country?
    Mr. Hatfield. Let me make sure I understood your question. 
Was it----
    Mr. Stearns. If we auction the D Block rather than just 
allocate it to public safety, it is a question of cost and 
deployment. How much faster and how much more cheaply can we 
deploy this public safety network across the country?
    Mr. Hatfield. I am not sure I can quantify it for you, but 
I do think that we are at a unique period of time here where 
the commercial networks are building out their LTE networks, 
and if we can piggyback on that and build at the same time, I 
think that there is substantial economies. I am not sure I can 
quantify it for you.
    Mr. Stearns. Admiral.
    Admiral Barnett. And I would just add to that if the D 
Block is reallocated it really destroys the commercial markets 
for the equipment. It makes the network more expensive to build 
and for public safety to operate it and get their own devices. 
For that reason we think that it would really be destructive on 
both a nationwide system and of an interoperable system.
    Mr. Stearns. This is a question for the entire panel I was 
asking the staff. Is there any country that has deployed 
through the broadband this type of interoperable broadband 
public safety network, and to our knowledge no one has done it. 
Does anyone on the panel know of any country that has done it?
    Admiral Barnett. I am not aware of anyone and certainly not 
in 4G.
    Mr. Stearns. But in maybe less than 4G?
    Admiral Barnett. Well, there are countries that have 
national police forces that have the advantage of having 
interoperable networks. I am not positive that those have made 
the leap to broadband yet. I don't know that.
    Mr. Stearns. OK. Well, I thought that was interesting that 
the fact that no one else had done it so possibly we would be 
the first. Chief Dowd, we appreciate your being here and 
everything you are doing. I have not talked to Peter King about 
his bill. I shall do that. I think the question that perhaps I 
would have because I think we all share the same goal, and I 
thank you for your opening statement. The problem is that 
legislation providing for direct grant of the spectrum it 
appears is not likely to make it we mark up this bill, that is 
not what we are looking at. Mr. King, Mr. Boucher and I should 
probably talk to him to see if there is any way we could 
discuss further dimensions of his bill. But if you and your 
illustrious peers decide that this is not the right way to go, 
it would be unfortunate because we would like your support. So 
I guess in a larger sense if you make a position that you are 
not supporting, which I think the majority on this panel and in 
this subcommittee, then that would not be good.
    So I guess I am reaching out to you that you might want to 
think about a fall back position so that we all move together 
here on a bipartisan fashion. Have you perhaps any ideas 
perhaps realizing that we would like your support? That is 
probably an observation rather than a question.
    Chief Dowd. Yes. Let me see if I can respond to that. We 
have studied this from every different angle, and when we look 
at the FCC's plan, we have only looked at it superficially so 
far because again it has only been out for 48 hours, but one of 
the things we keep hearing, I think, here from a public safety 
perspective is the notion or the concern that by doing this we 
are preventing public safety from having a broadband network. 
And our contention is that by doing what we are doing, we are 
establishing the necessary requirements to build a viable 
public safety network. You can't be in a situation where you 
are constantly comparing, and I keep hearing this, constantly 
comparing usage on the different types of networks, commercial 
compared to public safety, and say that those comparisons 
somehow invalidate public safety's needs. They simply don't.
    Commercial networks are built as for-profit networks. They 
try to maximize usage of the spectrum. Now we already on a 
number of occasions presented alternatives to members of this 
committee and to the FCC specifically that we feel would be far 
more efficient than our normal usage of spectrum. In the 
broadband technology those capabilities clearly are there, and 
we have discussed those and described those, and we are open to 
those flexibilities. Some of the flexibilities we see in your 
bill we are supportive of. But we just at the core of it can't 
get past the point that 10 megahertz of spectrum is just not 
going to be sufficient for our needs on an emergency basis and 
for that guaranteed delivery of information that we have to 
have which is different from the philosophy in commercial 
networks.
    And, if I could, just very quickly, you know, our position 
is and always will be that we cannot rely on commercial 
networks for mission critical work. Every experience we have 
ever have tells us that those systems will fail before our 
system were to fail. So we just don't see that as a realistic 
alternative.
    Mr. Stearns. So in your likelihood what happens is if we 
followed your path and you had this spectrum then you would 
rent it out? What do you feel the next step would be?
    Chief Dowd. Well, again, in trying to come up with 
solutions that we believe will be efficient but also accomplish 
the primary mission, don't forget the first and foremost 
mission of this is to be a viable public safety communications 
network, so we are looking to do not just data and video and 
all that stuff. We also want to do voice on this. We want to 
migrate into this highly efficient technology but always at the 
level of service that we would require. Would we allow for it 
or do we think the idea or the flexibility of allowing for the 
leasing on a secondary basis? As James just mentioned, there 
was an LTE that was 15 levels of priority. Could you allow for 
usage on a commercial basis to offset costs of the public 
safety network? Sure, you could.
    We have already talked to utilities that are very 
attractive to the idea because they would love to be on a 
system that is more hardened than the commercial networks which 
could give them on a secondary basis access to a public safety 
network. In an emergency, I will give you a quick example of 
it. Recently, in New York City we had a tremendous weather 
storm which was like a hurricane----
    Mr. Stearns. My time has expired, so I appreciate it. I 
guess the question would be where are you going to get the 
money to even do the initial construct afterwards. But my time 
has expired. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stearns. The 
gentleman from Illinois, Mr. Rush, is recognized for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. And, Mr. 
Chairman, first of all, let me ask unanimous consent that 2 
letters from the National Governors Association that they be 
admitted into the record.
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. Mr. Chairman, I really do feel like I am swimming 
upstream. In this situation I have listened to all the 
testimony. This situation kind of reminds me of a time when I 
was in the 5th grade and we had had a course--my teachers at 
the time were very enthusiastic about the Constitution and the 
Declaration of Independence and how everybody was equal and 
equality was the subject. So I was full of it and I went home, 
and my mother asked me to do something and we got in a little 
spat. I told my mother, I said, well, mom, I am equal. I have 
equal status in this household. And she said, yes, you do, but 
I am more equal than you. Chief Dowd, there is a lot of 
equality and everybody's opinion is respected here, but I have 
to say you are a little bit more equal than the others simply 
because you have the experience and we are looking to you to 
ensure that whatever kind of crisis that we might be faced 
with, the American people, that you have the sufficient 
resources and equipment to make sure that the emergency, that 
you are able to manipulate it and control it and to keep as 
many Americans alive as you possibly can, so to me you are a 
little more equal than the rest of the other panelists.
    And I just got to ask you just a couple of questions here. 
I understand that New York had to pay a fee to roam on a 
commercial carrier network. Is that true that you pay roaming 
fees in New York?
    Chief Dowd. Are we currently paying roaming fees?
    Mr. Rush. Yes.
    Chief Dowd. We are paying fees for commercial services on 
broadband right now.
    Mr. Rush. Does it impose a condition on D Block spectrum 
for enrollment fee charges to first responders?
    Chief Dowd. Well, again, you know, the logic of it to us is 
we are going to build our own system then why would we also 
want to pay for broadband services especially on networks that 
we are deeply reluctant to rely on, so it doesn't make a whole 
lot of sense to us.
    Mr. Rush. All right. I understand that FCC, and it has been 
testified about the 48-hour release of their White Paper 
concluded that 10 megahertz of broadband safety spectrum is 
sufficient for day-to-day operations. Yet I do have a FCC 
document filed by Motorola that shows something to the 
contrary. And, Mr. Chairman, I want to ask unanimous consent 
that this document be entered into the record also.
    Mr. Boucher. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. Do you agree with the FCC that 10 megahertz is 
sufficient for day-to-day operations?
    Chief Dowd. No, we don't. And we base on that our analysis 
of it with the White Paper that we submitted to the FCC which 
shows actually usage and estimates of usage of broadband 
capabilities in the future which clearly show us at 
concentrated incidents which happen on a regular basis, and 
some of them are high profile and you hear about them like 
plane crashes and such, and others that you don't hear about 
that happen every day. And our analysis clearly indicates to us 
that that 10 is simply not going to be enough. Just because 
there is a situation in Times Square where there is a very high 
profile incident where there is an explosive device doesn't 
mean that we don't respond to those types of things every day. 
And, you know what, thankfully most of them turn out to be 
nothing. An unattended bag in the subway system, it ends up 
being somebody's dirty laundry, but you don't know that until 
you take all the steps necessary to determine that, and to do 
that you need the communications capabilities to make those 
determinations.
    Mr. Rush. On the issue of priority access it merely puts 
public safety at the head of the line but does not guarantee. 
Now that is important to me. It does not guarantee that they 
can get on the system that is already clogged with consumer 
traffic, a situation that routinely occurs at the scene of a 
lot of emergencies across the country. And I guess this issue 
has been addressed with a pre-emption clause, and pre-emption 
would guarantee that access will require kicking consumers off 
the network in order for first responders to get access to the 
network. Do you support pre-empting consumer use to guarantee 
public safety access and how would that work and how viable is 
that?
    Chief Dowd. Well, that is the problem because there is a 
couple of issues there. Number 1 is clearly you are correct in 
our view in public safety that you need pre-emptive access to 
the spectrum. Next in line or first in queue is not sufficient 
for us to do the work that we have to do, but the problem is 
that again commercial systems are not built to the same 
standards that public safety communications are built to. They 
don't have the same survivability, the same backups, the same 
redundancies. You know, it is cost prohibitive for them and we 
understand that. They are in business to make money. We don't 
build that way. We build to a very different standard, so the 
problem is that even if you had pre-emptive access on 
commercial systems it doesn't mean that the system is going to 
be viable.
    And our experience is that if our systems get strained or 
our systems become overwhelmed or start to run into 
difficulties that has already happened to the commercial 
systems. Ours survive longer than theirs do.
    Mr. Rush. Maybe, Mr. Barnett, maybe you can answer this 
question for me. If commercial carriers are unable to provide 
priority access because the systems are overloaded, who is 
liable if the system is not available with the public safety 
operatives need it the most? Who is liable? Who assumes the 
liability for that?
    Admiral Barnett. I am not positive I can address your 
liability question on that, but it is why we designed our 
proposal so that public safety would have the core 10 
megahertz. Nobody else can use that. They can manage that 
spectrum however they want to. So the key question here is, and 
where Chief Dowd and I have a slight disagreement, he would 
tell you that 10 megahertz is not enough and I would tell you 
on some days, on those bad emergency days, 20 megahertz is not 
going to be enough. They are going to need to be able to roam 
over, and that is exactly why I cited the outage of the public 
safety voice system in the District of Columbia. They were out 
of business because they couldn't roam over onto other 
networks, and if those networks had been available and the FCC 
plan had been available to them, they could roam over to 1, 2, 
3, 4, any other network. It is a tremendous amount of 
redundancy that reallocating the D Block alone does not 
provide.
    Mr. Rush. Well, maybe Mr. Hatfield can--I had one more 
question.
    Mr. Boucher. OK. Mr. Rush, we have a series of votes 
coming.
    Mr. Rush. I have just one more question and this is a very 
simple question. Mr. Hatfield, in your opinion is 10 megahertz 
enough for public safety officials?
    Mr. Hatfield. If I could answer your question in this way. 
The advantage of cellular networks compared with when I started 
out in this business the public safety networks and the mobile 
telephone networks at the time use a very powerful transmitter 
that covered a whole area. Therefore, one conversation, there 
was only 200,000 subscribers in the country at that time, and 
the reason you couldn't have many more, one of the major 
reasons is that one conversation would take up the spectrum in 
a whole region. The whole notion of the cellular concept is 
that you shorten up the range of each transmission. So that, 
for example, a conversation here in this room could be used--
that same frequency could be used over at the Capitol Building 
and over on the Senate side. That same spectrum can be reused 
over and over.
    So a lot of this debate that you are hearing here concerns 
how much we use the spectrum. And so is it enough? Just having 
the size of the cell quadruples the capacity, so this is in 
some ways, you see, an economic issue. In other words, you take 
New York City, if they need more capacity, you do exactly what 
the cellular carriers have done and that is to divide their 
geographic areas more finely. And I believe it is correct that 
the FCC studies show that the amount of frequency we use, being 
proposed and being used in traditional public safety, is much, 
much less than what the commercial users provide. So to me 
Congress here has sort of a trade off here. If you can get more 
capacity for a public safety system by making it look more 
commercial with more sites or you can say, no, no, we will just 
hand you the spectrum without paying for it. And that is 
basically the trade off. That is basically the trade off that 
is going on here. To go back to your question, you can get more 
spectrum by dividing the cells down, cutting it in half, 
quadruples, roughly speaking, quadruples the amount of 
capacity.
    Mr. Boucher. Mr. Rush, thank you very much. Thanks to all 
of our witnesses. We appreciate your attendance here this 
morning. This has been a highly informative session certainly 
for me. I think the other members would say the same. And we 
may actually have some follow-up questions that we want to 
propound to you, so without objection the record of this 
hearing is going to remain open for a period of 2 weeks while 
members propound to you questions. When you get those, if you 
could answer them expeditiously, we would appreciate that. 
Thanks for your attendance today, and this hearing stands 
adjourned.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 77915A.110
    
    [GRAPHIC] [TIFF OMITTED] 77915A.111
    
    [GRAPHIC] [TIFF OMITTED] 77915A.112
    
    [GRAPHIC] [TIFF OMITTED] 77915A.113
    
    [GRAPHIC] [TIFF OMITTED] 77915A.114
    
    [GRAPHIC] [TIFF OMITTED] 77915A.115
    
    [GRAPHIC] [TIFF OMITTED] 77915A.116
    
    [GRAPHIC] [TIFF OMITTED] 77915A.117
    
    [GRAPHIC] [TIFF OMITTED] 77915A.118
    
    [GRAPHIC] [TIFF OMITTED] 77915A.119
    
    [GRAPHIC] [TIFF OMITTED] 77915A.120
    
    [GRAPHIC] [TIFF OMITTED] 77915A.121
    
    [GRAPHIC] [TIFF OMITTED] 77915A.122
    
    [GRAPHIC] [TIFF OMITTED] 77915A.123
    
    [GRAPHIC] [TIFF OMITTED] 77915A.124
    
    [GRAPHIC] [TIFF OMITTED] 77915A.125
    
    [GRAPHIC] [TIFF OMITTED] 77915A.126
    
    [GRAPHIC] [TIFF OMITTED] 77915A.127
    
    [GRAPHIC] [TIFF OMITTED] 77915A.128
    
    [GRAPHIC] [TIFF OMITTED] 77915A.129
    
    [GRAPHIC] [TIFF OMITTED] 77915A.130
    
    [GRAPHIC] [TIFF OMITTED] 77915A.131
    
    [GRAPHIC] [TIFF OMITTED] 77915A.132
    
    [GRAPHIC] [TIFF OMITTED] 77915A.133
    
    [GRAPHIC] [TIFF OMITTED] 77915A.134
    
    [GRAPHIC] [TIFF OMITTED] 77915A.135
    
    [GRAPHIC] [TIFF OMITTED] 77915A.136
    
    [GRAPHIC] [TIFF OMITTED] 77915A.137
    
    [GRAPHIC] [TIFF OMITTED] 77915A.138
    
    [GRAPHIC] [TIFF OMITTED] 77915A.139
    
    [GRAPHIC] [TIFF OMITTED] 77915A.140
    
    [GRAPHIC] [TIFF OMITTED] 77915A.141
    
    [GRAPHIC] [TIFF OMITTED] 77915A.142
    
    [GRAPHIC] [TIFF OMITTED] 77915A.143
    
    [GRAPHIC] [TIFF OMITTED] 77915A.144
    
    [GRAPHIC] [TIFF OMITTED] 77915A.145
    
    [GRAPHIC] [TIFF OMITTED] 77915A.146
    
    [GRAPHIC] [TIFF OMITTED] 77915A.147
    
    [GRAPHIC] [TIFF OMITTED] 77915A.148
    
    [GRAPHIC] [TIFF OMITTED] 77915A.149
    
    [GRAPHIC] [TIFF OMITTED] 77915A.150
    
    [GRAPHIC] [TIFF OMITTED] 77915A.151
    
    [GRAPHIC] [TIFF OMITTED] 77915A.152
    
    [GRAPHIC] [TIFF OMITTED] 77915A.153
    
    [GRAPHIC] [TIFF OMITTED] 77915A.154
    
    [GRAPHIC] [TIFF OMITTED] 77915A.155
    
    [GRAPHIC] [TIFF OMITTED] 77915A.156
    
    [GRAPHIC] [TIFF OMITTED] 77915A.157
    
    [GRAPHIC] [TIFF OMITTED] 77915A.158
    
    [GRAPHIC] [TIFF OMITTED] 77915A.159
    
    [GRAPHIC] [TIFF OMITTED] 77915A.160
    
    [GRAPHIC] [TIFF OMITTED] 77915A.161
    
    [GRAPHIC] [TIFF OMITTED] 77915A.162
    
    [GRAPHIC] [TIFF OMITTED] 77915A.163
    
    [GRAPHIC] [TIFF OMITTED] 77915A.164
    
    [GRAPHIC] [TIFF OMITTED] 77915A.165
    
    [GRAPHIC] [TIFF OMITTED] 77915A.166
    
    [GRAPHIC] [TIFF OMITTED] 77915A.167
    
    [GRAPHIC] [TIFF OMITTED] 77915A.168
    
    [GRAPHIC] [TIFF OMITTED] 77915A.169
    
    [GRAPHIC] [TIFF OMITTED] 77915A.170
    
    [GRAPHIC] [TIFF OMITTED] 77915A.171
    
    [GRAPHIC] [TIFF OMITTED] 77915A.172
    
    [GRAPHIC] [TIFF OMITTED] 77915A.173
    
    [GRAPHIC] [TIFF OMITTED] 77915A.174
    
    [GRAPHIC] [TIFF OMITTED] 77915A.175
    
    [GRAPHIC] [TIFF OMITTED] 77915A.176
    
    [GRAPHIC] [TIFF OMITTED] 77915A.177
    
    [GRAPHIC] [TIFF OMITTED] 77915A.178
    
    [GRAPHIC] [TIFF OMITTED] 77915A.179
    
    [GRAPHIC] [TIFF OMITTED] 77915A.180
    

</pre></body></html>
